   March 20, 2002




Acquisition

Buy American Act Issues on
Procurements of Military Clothing
(D-2002-066)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
AFB                 Air Force Base
BPA                 Blanket Purchase Agreement
DCADS               Defense Contract Action Data System
DCN                 DFARS Change Notice
DFARS               Defense Federal Acquisition Regulation Supplement
FAC                 Federal Acquisition Circular
FAR                 Federal Acquisition Regulation
FISC                Fleet and Industrial Supply Center
FSC                 Federal Supply Classification
GSA                 General Service Administration
IDIQ                Indefinite Delivery Indefinite Quantity
NAFTA               North American Free Trade Agreement
NCBC                Naval Construction Battalion Center
NSWC                Naval Surface Warfare Center
U.S.C.              United States Code
USDB                United States Disciplinary Barracks
USPFO               United States Property and Fiscal Office
USSOCOM             United States Special Operations Command
                        Office of the Inspector General, DoD
Report No. D-2002-066                                                      March 20, 2002
   (Project No. D2001CH-0046)

                          Buy American Act Issues on
                       Procurements of Military Clothing

                                 Executive Summary

Introduction. We conducted the audit in response to a tasking in the House Committee on
Armed Services Report on the Floyd D. Spence National Defense Authorization Act for
FY 2001. The Committee Report expressed concern over the number of violations of the
Buy American Act identified in Inspector General, DoD, Report No. 99-023,
“Procurement of Military Clothing and Related Items by Military Organizations,”
October 29, 1998. Of the 256 contracts reviewed 151 (59 percent) did not include the
appropriate contract clause. The Committee tasked the Inspector General to conduct a
followup audit to evaluate compliance with the Buy American Act for procurements of
military clothing and related items by military installations during FYs 1998 and 1999 and
to evaluate the actions taken after the 1998 audit to improve compliance with the Buy
American Act. During FYs 1998 and 1999, 144 military installations made at least
3,875 procurements of military clothing and related items valued at $1.16 billion. This
report discusses 698 of the procurements, valued at $136.7 million, by 65 military
installations. The report does not discuss procurements by the Defense Supply Center
Philadelphia, a Defense Logistics Agency field unit that procures about $1 billion of
military clothing and related items annually.

Objectives. The objectives of the audit were to determine whether contracting officers
complied with the Buy American Act and the Berry Amendment when they procured
military clothing and related items and to evaluate DoD actions taken after the 1998 audit to
improve compliance with the Buy American Act. In addition, the audit evaluated the
adequacy of the management control program as applicable to the procurement of military
clothing and related items.

Results. DoD contracting officers continued to violate the Buy American Act on FYs 1998
and 1999 procurements of military clothing and related items. Of 698 contracts reviewed,
416 (60 percent) did not include the appropriate contract clause to implement the Buy
American Act or the Berry Amendment. Contracting officers at 13 military installations
procured military clothing and related items that were manufactured or produced abroad
without determining whether items manufactured in the United States or a qualifying
country were available, as required by the Buy American Act, or items manufactured in the
United States were available, as required by the Berry Amendment. As a result,
contracting officers awarded 28 contracts to contractors that supplied $593,004 worth of
items manufactured abroad that may have been available from contractors supplying items
manufactured in the United States. The noncompliance with the Berry Amendment resulted
in three potential violations of the Antideficiency Act because the contracts were either
funded directly with appropriated funds or working capital funds that were reimbursed with
appropriated funds, which are not available for the procurement of foreign-made items. On
January 18, 2002, the Office of General Counsel, DoD, opined that a violation of the Buy
American Act may give rise to a potential violation of the Antideficiency Act. The Office
of General Counsel further opined that the Buy American Act applied to procurements of
commercial items, but that Defense Federal Acquisition Regulation Supplement
215.503.(a)(xi) created sufficient ambiguity to make a contrary conclusion reasonable.
Therefore, the Office of General Counsel made its opinion effective prospectively only and
declined to treat any past violations of the Buy American Act (includes the 25 Buy
American Act violations discussed in this report) as potential violations of the
Antideficiency Act. We revised the finding and recommendation concerning
Antideficiency Act violations accordingly.

The DoD corrective actions taken after the prior audit should have affected contracts
awarded in FY 1999. We saw no significant reductions in violations of Buy American Act
and Berry Amendment procedures for those contracting actions. For details of the audit
results, see the Finding section of the report.

Summary of Recommendations. We recommend that the Acquisition Executives for the
Army, Navy, Air Force, and U.S. Special Operations Command establish review
procedures or additional training for solicitations and contract awards for clothing
procurements subject to the Buy American Act and the Berry Amendment. We recommend
that the Assistant Secretaries (Financial Management and Comptroller) of the Army and Air
Force investigate, for the contracts under their cognizance, the three potential
Antideficiency Act violations.

Management Comments. The Army Acquisition Executive, on February 14, 2002,
issued a memorandum to its Principal Assistants responsible for contracting reminding them
of Buy American Act and Berry Amendment restrictions and enjoining them to comply on
future acquisitions. The Army nonconcurred that potential Antideficiency Act violations
occurred when they did not comply with the Berry Amendment because the delivery orders
did not exceed $100,000. The Navy nonconcurred with establishing special procedures for
clothing procurements but stated that Navy activities will conduct refresher training on Buy
American Act responsibilities. Additionally, the Navy included a review of procurements
involving Buy American Act and Berry Amendment restrictions in its triennial procurement
performance management assessments of field activities and will conduct on-site training if
deficiencies are identified. The Air Force stated that each major command has developed,
or is in the process of developing, training and tools to help ensure compliance with the
Buy American Act and the Berry Amendment. The Air Force is also developing a
comprehensive training module on the laws and will deploy the training across the Air
Force by July 12, 2002. The Air Force also stated that it has initially found that there is no
reason to conclude that the Air Force Academy committed an Antideficiency Act violation
when it did not comply with the Berry Amendment because no delivery order exceeded
$100,000. The United States Special Operations Command (USSOCOM) nonconcurred
with the report stating that the 34 USSOCOM actions reviewed indicate that the problems
with applying the foreign acquisitions statutes are not as widespread as outlined in the
report. However, USSOCOM plans to conduct training on the proper handling of Buy
American Act and Berry Amendment issues. See the Finding section for a discussion of
management comments on the recommendations; see Appendix F for a discussion of
management comments on the finding; and see the Management Comments section for the
complete text of management comments.

Audit Response. The alternative actions taken and planned by the Army, Navy, Air
Force, and USSOCOM are responsive and satisfy the intent of the recommendation to
establish special procedures for military clothing procurements. The Army and Air Force
comments on the investigation of the potential Antideficiency Act violations are not
responsive. We request that the Army and the Air Force provide additional comments
concerning the potential Antideficiency Act violations by May 20, 2002.


                                              ii
Table of Contents

Executive Summary                                                             i

Introduction
     Background                                                               1
     Objectives                                                               3

Finding
     Compliance with Buy American Act and Berry Amendment                     4

Appendixes
     A. Audit Process
         Scope                                                               18
         Methodology                                                         18
         Management Control Program Review                                   22
         Prior Coverage                                                      23
     B. FAR and DFARS Guidance Revised After Contracts Reviewed Were
          Awarded and Discussion of the Guidance                             24
     C. Qualifying Countries Listed in DFARS 225.872                         27
     D. Procurements that Did Not Comply with the Buy American Act or the
          Berry Amendment                                                    28
     E. Actions Taken After the Audit of FY 1996 and FY 1997 Procurements
          of Military Clothing and Related Items at Specific Installations   42
     F. USSOCOM Comments on the Finding and Audit Response                   44
     G. Navy Memorandum Re-emphasizing Importance of Buy American Act
          and Berry Amendment                                                47
     H. Report Distribution                                                  51

Management Comments
     Department of the Army                                                  53
     Department of the Navy                                                  62
     Department of the Air Force                                             65
     United States Special Operations Command                                67
Background
    Floyd D. Spence National Defense Authorization Act for FY 2001. We
    performed this audit in response to the House Committee on Armed Services Report
    on the Floyd D. Spence National Defense Authorization Act for FY 2001. The
    Committee expressed concern over the number of violations of the Buy American
    Act identified in Inspector General, DoD, Report No. 99-023, “Procurement of
    Military Clothing and Related Items by Military Organizations,” October 29, 1998.
    The Committee tasked the Inspector General to conduct a followup audit of
    procurements of military clothing and related items in excess of the micro-purchase
    threshold by military installations during FYs 1998 and 1999 to determine the
    extent to which the installations did not comply with the Buy American Act. The
    Committee also requested that the Inspector General evaluate the actions taken by
    DoD to improve compliance with the Buy American Act after Report 99-023 was
    issued.

    The Buy American Act. The Buy American Act, enacted March 3, 1933, restricts
    foreign access to U.S. Government procurements by giving preference to
    domestically produced or manufactured products. The Federal Acquisition
    Regulation (FAR) part 25, “Foreign Acquisition,” and the Defense Federal
    Acquisition Regulation Supplement (DFARS) part 225, “Foreign Acquisition,”
    implement the Buy American Act.

    The Berry Amendment. From FYs 1942 through 1993, every DoD appropriations
    act contained a provision that placed domestic source restrictions on DoD
    procurements of such items as food, clothing, fabrics, specialty metals, and hand or
    measuring tools. The provision has been codified under section 2533a, title 10,
    United Sates Code (10 U.S.C. 2553a). DFARS 225.7002-1, “Restrictions,”
    implements the Berry Amendment. The DFARS provision requires the items
    specified in the Berry Amendment to be grown or produced in the United States or
    its possessions. To comply with the law, DoD contracting officers must determine
    that the offered item is produced in the United States or its possessions before
    awarding the contract.

    Table 1 shows the dollar parameters for implementation of the Buy American Act
    (the Act) and the Berry Amendment (the Amendment) in procurements of military
    clothing and related items. Solicitations and contracts should specify the related
    DFARS references shown in the table.

                        Table 1. DoD Procurement Applications

         Procurement Value        Applicable Statute       DFARS Reference

         $2,500 to $100,000       Buy American Act         DFARS 252.225-7000
                                                           DFARS 252.225-7001

         More than $100,000       Berry Amendment          DFARS 252.225-7012




                                         1
The FAR and DFARS were revised after the contracts discussed in this report were
awarded. The revisions do not significantly alter the guidance for implementing the
Buy American Act and the Berry Amendment within DoD, but the numbering of
some sections, subsections, and clauses changed. The FAR and DFARS guidance
that was in effect when the contracts were awarded is cited in this report. See
Appendix B for a list of the FAR and DFARS guidance cited in the report, the
current guidance, and a discussion of the guidance.

Categories of Military Clothing and Related Items. A December 1997 report
prepared by the Military Uniform Task Force under the direction of the Assistant
Secretary of Defense (Force Management Policy) and the Federal Procurement
Data System Product Service Codes classifies military clothing and related items
into the following categories.

       •   Mandatory: Uniform and clothing items that members are required by
           Military Department regulations to possess at all times.

       •   Issue: Mandatory uniform and clothing items issued to recruits at basic
           training.

       •   Optional: Uniform and clothing items purchased by military members
           and worn at their option in accordance with their Military Department
           regulations.

       •   Organizational: Protective or specialized uniforms and clothing items
           that are purchased by an organization and provided to members for a
           specific purpose or operational need.

       •   Related: Individual equipment items such as duffel bags, ammunition
           belts, pistol belts, packboards, sleeping bags, sunglasses, snowshoes,
           swords, and scabbards.


Primary DoD Sources for Military Clothing and Related Items. There are two
primary DoD sources for military clothing and related items: the Defense Supply
Center Philadelphia, and clothing sales stores operated by the Military Exchanges,
including the Army and Air Force Exchange Service, the Navy Exchange Service
Command, and the Marine Corps Exchange System. The Defense Supply Center
Philadelphia spends about $1 billion annually to procure mandatory and issue
clothing items that military members are required to maintain throughout their
careers, as well as organizational clothing, and related items. The Defense Supply
Center Philadelphia adds a surcharge (about 11.3 percent in FY 1999) to items it
procures to cover its operating expenses. The Military Exchanges procure optional
items that military members may, but are not required to, possess. In addition to
optional items, the Navy Exchange Service Command procures mandatory uniform
items for Navy officers and master, senior, and chief petty officers. The Military
Exchanges manage the military clothing sales stores that provide Defense Supply
Center Philadelphia procured items as replacements, as well as optional uniform
and related items approved by the Military Departments.




                                     2
     Procurements of Military Clothing and Related Items by Military Installations.
     According to the Defense Contract Action Data System (DCADS), 144 installations
     executed 3,203 contract actions valued at more than $25,000 each for special
     purpose clothing, footwear, and individual equipment items during FYs 1998 and
     1999. The Air Force Academy identified three additional contract actions that were
     not in the DCADS system. The total value of the 3,206 contract actions was
     $1.15 billion. Additionally, 44 military installations identified 669 contract actions
     for military clothing and related items valued between $2,500 and $25,000. The
     total value of the 669 contract actions was about $5.5 million. The number and
     value of all purchases of military clothing items between $2,500 and $25,000 could
     not be determined because DoD organizations are not required to report details on
     procurements under $25,000 to a central database.

     We selected for review 421 of the 3,206 contract actions valued over $25,000 and
     277 of the 669 contract actions valued between $2,500 and $25,000. The total
     value of the 698 contract actions reviewed was about $136.7 million. The
     698 contract actions did not include mandatory uniform items (shirts, trousers,
     coats, headwear, etc.) that are procured by the Defense Supply Center Philadelphia
     and requisitioned by military organizations for issue to military personnel. See
     Appendix A for additional information on the universe of procurements of military
     clothing and related items and the sample of procurements selected for review.


Objectives
     The objectives of the audit were to determine whether contracting officers complied
     with the Buy American Act and the Berry Amendment when they procured military
     clothing and related items and to evaluate DoD actions taken after the 1998 audit to
     improve compliance with the Buy American Act. In addition, the audit evaluated
     the adequacy of the management control program as applicable to the procurement
     of military clothing and related items. See Appendix A for a discussion of the audit
     scope and methodology, our review of the management control program, and a list
     of prior audit coverage related to the audit objectives.




                                           3
                   Compliance with Buy American Act and
                   Berry Amendment
                   DoD contracting officers continued to violate the Buy American Act and the
                   Berry Amendment on procurements of military clothing and related items
                   during FYs 1998 and 1999*. We reviewed 698 contract actions awarded by
                   65 military installations. The contracting officers did not include the
                   appropriate clause to implement the Buy American Act or the Berry
                   Amendment in 416 (60 percent) of the 698 contract actions. Contracting
                   officers at 13 of the 65 military installations procured military clothing and
                   related items manufactured or produced abroad without first determining, as
                   appropriate, whether items manufactured in the United States or a qualifying
                   country were available, as required by the Buy American Act, or items
                   manufactured in the United States were available, as required by the Berry
                   Amendment. The contracts were issued without the appropriate clauses,
                   and the items were procured because contracting officers were not familiar
                   with or did not understand the Buy American Act, the Berry Amendment,
                   and the FAR and DFARS implementing guidance. Further, legal and
                   technical reviews of the solicitations and contracts were either not
                   performed or failed to ensure compliance with the Act or Amendment.
                   Additionally, contracting officers often focused on satisfying customer
                   requests without considering the Act or Amendment. As a result,
                   contracting officers awarded 28 contracts to contractors that supplied
                   $593,004 worth of items manufactured abroad that might have been
                   procured from contractors supplying items manufactured in the United
                   States. The noncompliance with the Berry Amendment resulted in three
                   potential violations of the Antideficiency Act. The noncompliance with the
                   Buy American Act could have resulted in 25 additional potential
                   Antideficiency Act violations. The corrective actions taken after the prior
                   audit should have affected contracts awarded in FY 1999. We saw no
                   significant reductions in violations of the Buy American Act and the Berry
                   Amendment procedures for those contracting actions.

                   On January 18, 2002, the Office of General Counsel, DoD, opined that a
                   violation of the Buy American Act may give rise to a potential violation of
                   the Antideficiency Act. The Office of General Counsel further opined that
                   the Buy American Act applied to procurements of commercial items, but
                   because the Defense Federal Acquisition Supplement 215.503(a)(xi) created
                   sufficient ambiguity to make a contrary conclusion reasonable, the Office of
                   General Counsel would make its interpretation effective only prospectively.
                   Accordingly, it declined to treat past violations of the Buy American Act
                   (including the 25 violations discussed in this report) as potential violations
                   of the Antideficiency Act.


*
    In Report No. 99-023, “Procurement of Military Clothing and Related Items by Military
    Organizations,” we reported that 151 of 256 audited FY 1996 and FY 1997 contracts (59 percent)
    violated the Act or the Amendment. For that reason, Congress requested followup with further audit
    work.



                                                     4
Contract Actions Reviewed During the Audit
     We reviewed 698 contract actions awarded by 65 military installations during
     FYs 1998 and 1999. Of the 698 contract actions reviewed, 532 (valued between
     $2,500 and $100,000) were subject to the Buy American Act, and 166 valued at
     ($100,000 or more) were subject to the Berry Amendment. The prior audit
     reviewed 256 contract actions awarded by 70 military installations during FYs 1996
     and 1997. Of the 256 contract actions reviewed during the prior audit, 201 were
     subject to the Buy American Act, and 55 were subject to the Berry Amendment.
     Table 2 identifies the number and the range of values of contract actions reviewed
     by DoD Components for the current and prior audits.

           Table 2. Contract Actions Reviewed by DoD Component and Values
                      Number of         $2,500 to      $25,000 to    More Than
                      Installations      $25,000 1/    $100,000 1/   $100,000 2/   Total

     Army
      Current Audit        24               58              85           68        211
      Prior Audit          15                3              37           23         63

     Navy
      Current Audit         8               34              47           50        131
      Prior Audit          14               14              22            9         45

     Air Force
      Current Audit        29              165             115           33        313
      Prior Audit          37               55              68           19        142

     Marine Corps
      Current Audit         1                0               1            8          9
      Prior Audit           4                0               2            4          6

     USSOCOM 3/
      Current Audit         3               12              15            7         34
      Prior Audit           0                0               0            0          0
     Total
      Current Audit        65              269             263          166        698
      Prior Audit          70               72             129           55        256


     1/
        Subject to Buy American Act
     2/
        Subject to Berry Amendment
     3/
        United States Special Operations Command




                                                   5
Use of Buy American Act and Berry Amendment
Contract Clauses
    The FAR and DFARS cite several references for incorporating the Buy American
    Act and Berry Amendment provisions into contracts and solicitations for
    commercial items and other than commercial items. The audit determined that for:

           •   356 of the 532 contract actions subject to the Buy American Act, the
               contracting officers did not include the correct clause in the contracts
               and

           •   60 of the 166 contract actions that were subject to the Berry
               Amendment, contracting officers did not include DFARS 252.225-7012,
               “Preference for Certain Domestic Commodities,” in the contracts.

    We believe the complexity of the guidance and the number of exemptions,
    exceptions, and waiver authorities make it difficult for contracting officers to
    understand what is necessary to meet the requirements of the Buy American Act
    and the Berry Amendment.

    Buy American Act Procurements. The audit determined that contracting officers
    for 356 of the 532 contract actions subject to the Buy American Act were not
    sufficiently familiar with the Buy American Act and guidance in the FAR and
    DFARS to ensure compliance. The contracting officers for 149 of the 532 contract
    actions were sufficiently familiar with the guidance to include the correct Buy
    American Act clause in the contracts, request the required certifications, or inquire
    about the origin or manufacture of the clothing items. For the remaining 27
    contract actions, we could not determine whether the appropriate clause was
    included because the contract files were unavailable or incomplete. Also, legal and
    technical reviews of the solicitations and contracts were either not performed or did
    not ensure that the solicitations and contracts conformed to the Buy American Act.
    Of the 532 contract actions, 25 actions resulted in procurements of items valued at
    $330,281 from nonqualifying countries that may have been available from
    contractors supplying items manufactured in the United States or a qualifying
    country. Of the 25 actions that resulted in procurements of items manufactured in
    nonqualifying countries, 2 actions were awarded to another DoD installation, which
    purchased and supplied items manufactured in nonqualifying countries. (See the
    discussion of Fort Knox contracts DABT23-98-P-1238 and DABT23-99-P-0766 in
    Appendix D for additional details.) Contractors on 481 contract actions supplied
    items manufactured in the United States or a qualifying country. We could not
    determine the country of origin for the remaining 26 contract actions. The prior
    audit determined that the contracting officers for 131 of the 201 contract actions
    subject to the Buy American Act did not include the correct Buy American Act
    clause in the contracts. The contracting officers for the other 70 contract actions
    were sufficiently familiar with the guidance to include the correct Buy American
    Act clause in the contracts. Of the 131 contract actions, 12 actions resulted in
    procurements of items valued at $334,546 from nonqualifying countries that may
    have been available from contractors supplying items manufactured in the United
    States or a qualifying country. Table 3 shows information on contract actions
    subject to the Buy American Act for the current and prior audits.



                                          6
                      Table 3. Information on Contract Actions
                          Subject to the Buy American Act

                                             Number       Value         Percent of Total

  Contract Actions Reviewed
        Current Audit                          532     $13.7 million           100
        Prior Audit                            201      $6.4 million           100

  Contract Actions that Did Not
  Contain the Buy American Act Clause
        Current Audit                          356      $9.4 million            67
        Prior Audit                            131      $3.7 million            65

  Contract Actions for Items Manufactured in
  Nonqualifying Countries (Did Not Comply
  with the Buy American Act)
        Current Audit                        25           $330,281*              5
        Prior Audit                          12           $334,546*              6

*Depicts funds obligated for items made in nonqualifying foreign countries, not necessarily
  total contract value


On 24 of the 25 contract actions that resulted in procurements of items made in
nonqualifying foreign countries, the contracting officers did not include the correct
DFARS clause in the contracts. The contracting officers for the 24 contracts did
not require the offerors to execute the required Buy American Act-Balance of
Payments Program Certificate. The other contract action contained the correct
clause, but the contracting officer did not enforce it. The contracting officers did
not give preference to domestic end products when they evaluated offers and did not
obtain a determination that the procured items were not reasonably available from
domestic sources before awarding the contract actions to contractors who supplied
items that were manufactured in nonqualifying countries. The contracting officers
for four contracts focused on satisfying customer requests (usually supply officials)
for specific items without determining if the items complied with the Buy American
Act. The 25 contracts that did not comply with the Buy American Act are shown in
Table 4, and each procurement is discussed in detail in Appendix D.




                                         7
       Table 4. Contracts That Did Not Comply With the Buy American Act
                                   Contract                                     Country
      Organization                 Number               Value* Item Description of Origin

        Army
   Fort Knox                  DABT23-98-P-1238 $ 15,785           T-shirts          Mexico
   Fort Knox                  DABT23-99-M-0390    4,666           Polo-shirts       Honduras
   Fort Knox                  DABT23-99-P-0766   26,778           T-shirts          Mexico
   Military Academy           DAAG60-98-P-0815    5,795           Blouses           China
   Military Academy           DAAG60-99-P-0245    5,320           Blouses           China
   Tobyhanna Army Depot       DAAC71-96-A0318/    8,594           Gloves            Malaysia
                               0007 and 0009

        Navy
   FISC, Bremerton            N00406-98-D-5060           2,852    Gloves            Mexico
   FISC, Bremerton            N00406-99-M-2951           4,092    Gloves            China
   FISC, Bremerton            N00406-99-M-2820          27,699    Gloves            China
   FISC, Pearl Harbor         N00604-99-M-A430           2,781    Jackets           China
   FISC, San Diego            N00244-99-D0015           35,651    Wetsuits          Japan

        Air Force
   Dover AFB                  F07603-98-P-0431          2,694     Gloves            S. Korea
   Dover AFB                  F07603-99-P-0101         30,150     Gloves            S. Korea
   Edwards AFB                F04700-99-P-0091         13,662     Gloves            S. Korea
   Edwards AFB                F04700-99-P-0143          2,613     Gloves            S. Korea
   Edwards AFB                F04700-99-P-0147          5,489     Gloves            S. Korea
   Grand Forks AFB            F32605-98-P-0129         51,000     Gloves            China
   Grand Forks AFB            F32605-98-P-0222          7,655     Gloves            China
   Grand Forks AFB            F32605-99-P-0034         35,504     Gloves            China
   Maxwell AFB                F01600-99-P-0428         15,288     Jackets           Taiwan
   Maxwell AFB                F01600-99-P-0366          4,288     Safety Shoes      China
   Maxwell AFB                F01600-99-P-0372         14,313     Jackets           Taiwan
   Peterson AFB               F05604-98-P-1860          3,024     T-shirts          Mexico
   Peterson AFB               F05604-98-P-2471          4,588     Jerseys           Mexico
              Total                                  $330,281
               FISC - Fleet and Industrial Supply Center
               AFB - Air Force Base

*Depicts funds obligated for items made in nonqualifying foreign countries, not necessarily total
  contract value




                                           8
Berry Amendment Procurements. The contracting officers for 60 of the 166
contract actions subject to the Berry Amendment were not sufficiently familiar with
the DFARS Berry Amendment guidance to ensure compliance, and legal and
technical reviews were either not performed or not adequate to identify the
noncompliance. The contracting officers for 103 contract actions were sufficiently
familiar with the guidance to include DFARS 252.225-7012 in the contracts. For
the remaining three contract actions, we could not determine whether the
appropriate clause was included because the contract files were unavailable or
incomplete. On 20 of the 60 contract actions, the contracting officers did not
implement the Berry amendment because the actions were orders under a General
Services Administration Federal Supply Schedule. The General Services
Administration does not use DFARS 252.225-7012 in Federal Supply Schedule
because the Berry Amendment applies only to DoD. Table 5 shows information on
contract actions subject to the Berry Amendment for the current and prior audits.

                   Table 5. Information on Contract Actions
                       Subject to the Berry Amendment

                                     Number           Value          Percent of Total

   Contract Actions Reviewed
      Current Audit                   166       $123.0 million            100
      Prior Audit                      55        $36.2 million            100

   Contract Actions that Did Not Contain
   the Berry Amendment Clause
       Current Audit                  60          $30.7 million             36
       Prior Audit                    20          $21.3 million             36

   Contract Actions for Items Manufactured
   In Foreign Countries (Did Not Comply
   With the Berry Amendment)
       Current Audit                   3        $0.26 million*               2
       Prior Audit                     4         $1.1 million*               7

 *Depicts funds obligated for items made in foreign countries, not necessarily total
    contract value


For two of the three contract actions that resulted in procurements of items
manufactured in nonqualifying foreign countries, the contracting officer did not
include DFARS clause 252.225-7012 in the solicitations and contracts. For the
third contract action, the contracting officer included the clause but did not enforce
it. The contracting officers generally responded to customer requests for specific
items without determining whether the items complied with the Berry Amendment.
Additionally, the contracting officers did not obtain from the applicable Secretary of
the Military Department the determination required by DFARS 225.7002-2(a),
“Exceptions,” that the items are not available in satisfactory quality and sufficient
quantity grown or produced in the United States or its possessions at United States
market prices before awarding the contracts to contractors who supplied items that



                                        9
      were manufactured in foreign countries. The three contracts that did not comply
      with the Berry Amendment are shown in Table 6, and each procurement is
      discussed in detail in Appendix D.

           Table 6. Contracts That Did Not Comply With the Berry Amendment
                                         Contract                                      Country
          Organization                   Number                Value* Item Description of Origin
           Army
       Letterkenny Army Depot DAAC67-97-D-0002 $ 84,136                   Safety Shoes         China
                               (24 orders)

           Air Force
      Air Force Academy            F05611-99-D-M502           107,349     Athletic Shoes       China
                                     (2 orders)
       Air Force Academy           F05611-98-D-M001            71,238     Athletic Shoes       China
                                     (2 orders)
                    Total                                   $262,723


    *Depicts funds obligated for items made in foreign countries, not the total contract value. The
     estimated contract value of each of the three contracts exceeded the $100,000 Berry
     Amendment threshold.



Potential Antideficiency Act Violations
      The noncompliance with the Berry Amendment on three contracts resulted in
      three potential violations of the Antideficiency Act, section 1341(a)(1)(A), title 31,
      U.S.C. These potential violations occurred because the contracts were either
      funded directly with appropriated funds or working capital funds that were
      reimbursed with appropriated funds that are not available for the procurement of the
      foreign-made items. The orders under the three contracts included $262,723 for
      items that were manufactured in nonqualifying foreign countries.

      The Berry Amendment states in part:

                  . . . no part of any appropriation or any other funds available to the
                  Department of Defense, except for purchases for amounts not greater
                  than the simplified acquisition threshold . . . shall be available for the
                  procurement of any item of food, clothing . . . not produced in the
                  United States or its possessions.




                                                10
The Antideficiency Act (31 U.S.C. 1341) states in part:

           (a)(1) An officer or employee of the United States Government . . . may
           not--


                (A) make or authorize an expenditure or obligation exceeding an
           amount available in an appropriation or fund for the expenditure or
           obligation; . . .

The DoD Financial Management Regulation 7000.14R, “Administrative Control of
Funds and Antideficiency Act Violations,” volume 14, states in part:

           . . . violation of 31 U.S.C. 1341 (a)(1)(A) may occur when statutory
           limitations on the purpose for which an appropriation or fund may be
           used are violated.

DoD Directive 7200.1, “Administrative Control of Appropriations,” May 4, 1995,
regulates fund control for all DoD Components. The directive requires DoD
components to establish positive control and maintain adequate systems of
accounting for appropriations and other available funds. The directive further
requires the Heads of the DoD Components to investigate and report on apparent
and potential Antideficiency Act violations.

The Assistant Secretaries (Financial Management and Comptroller) of the Army
and Air Force should investigate the contracts listed in Table 6 under their
cognizance, for potential Antideficiency Act violations arising from using
appropriated funds and working capital funds to purchase items that are not in
compliance with the Berry Amendment and fix responsibility. If any violations of
the Antideficiency Act occurred, the Assistant Secretaries should comply with
reporting requirements in DoD Directive 7200.1 and Financial Management
Regulation volume 14. Table 7 shows the number and value of the contracts with
potential Antideficiency Act violations by Military Service on the current and prior
audits.




                                        11
       Table 7. Contracts With Potential Antideficiency Act Violations

                                         Number of
                                         Contracts*                          Value**

    Army
        Current Audit                            1                       $    84,136
        Prior Audit                              2                           845,236

    Air Force
         Current Audit                           2                           178,587
         Prior Audit                             2                           253,940

         Total
         Current Audit                           3                        $ 262,723
         Prior Audit                             4                        $1,099,176
*Does not include the 25 contract actions on the current audit and 39 actions on the prior
   audit that the Office of General Counsel, DoD, declined to treat as potential
   violations of the Antideficiency Act.
**Depicts funds obligated for items made in nonqualifying foreign countries, not
   necessarily total contract value



 Office of General Counsel, DoD, Position on the Applicability of the
 Antideficiency Act to Violations of the Buy American Act. On January 18,
 2002, the Office of General Counsel, DoD, opined that a violation of the Buy
 American Act may give rise to a potential violation of the Antideficiency Act. The
 Office of General Counsel further opined that the Buy American Act applied to
 procurements of commercial items, but that DFARS 215.503.(a)(xi) created
 sufficient ambiguity so as to make a contrary conclusion reasonable. Therefore, the
 Office of General Counsel made its opinion effective prospectively only and
 declined to treat any past violations of the Buy American Act (includes the 25 Buy
 American Act violations discussed in this report) as potential violations of the
 Antideficiency Act.

 The Department of Defense Appropriation Acts for FY 1998 and 1999 are
 applicable to the contracts that did not comply with the Buy American Act. The
 laws state in part:

             None of the funds appropriated in this Act may be expended by an entity
             of the Department of Defense unless the entity, in expending the funds,
             complies with the Buy American Act. . . .

 In a 1992 decision, the Comptroller General held that a procurement of fuel cells in
 violation of Berry Amendment restrictions would result in a violation of the
 Antideficiency Act prohibition against obligating agency funds in direct
 contravention of a specific limitation contained in an appropriations act
 (Comptroller General Decision, B-246304.2, “Matter of: Department of Defense
 Purchase of Fuel Cells,” July 31, 1992). As noted, the Appropriations Act



                                          12
     language considered by the Comptroller General in 1992 has since expanded and
     become a permanent prohibition. Because the Defense Appropriations Acts now
     contain similar language with respect to purchases in violation of the Buy American
     Act, we believe that the same rationale and result should apply in those cases. To
     avoid potential violations of the Antideficiency Act on future procurements of
     military clothing items, contracting officers must follow FAR and DFARS guidance
     to properly implement the Buy American Act and the provision of law known as the
     “Berry Amendment” codified at 10 U.S.C. 2533a.


Actions Taken After the Audit of FY 1996 and FY 1997
Procurements of Military Clothing and Related Items
     After the prior audit of FY 1996 and FY 1997 procurements of military clothing
     and related items, several actions were taken to improve compliance with the Buy
     American Act and the Berry Amendment but additional actions are needed to
     improve compliance.

     Recommendations in the Prior Audit Report. Report No. 99-023 contained the
     following recommendations:

            •   The Director, Defense Procurement, should issue guidance to emphasize
                the requirement to incorporate and enforce the Buy American Act and
                Berry Amendment provisions and clauses in solicitations and contracts
                for military clothing and related items.

            •   The Director, Acquisition Initiatives should ensure that the Defense
                Acquisition University stresses the ramifications of not complying with
                the Buy American Act and the Berry Amendment in their existing
                contracting courses.

            •   The Assistant Secretaries (Financial Management and Comptroller) of
                the Army, Navy, and Air Force should investigate, for the contracts
                under their cognizance, the 43 potential Antideficiency Act violations.

     Actions Taken on the Prior Audit Recommendations. On March 2, 1999, the
     Director, Defense Procurement, issued policy guidance that identified the specific
     DFARS subparts that implement the requirements of the Buy American Act and the
     Berry Amendment and required that contracting officers review and comply with
     the requirements. We found little evidence that the Director, Defense Procurement,
     memorandum was disseminated to or implemented at the installation level by the
     Military Departments. On May 23, 2000, the Defense Acquisition University
     incorporated expanded coverage of the Buy American Act in the basics of
     contracting course, the fundamentals of contract pricing course, and the
     Government contract law course. See Appendix E for a summary of the additional
     actions taken at specific installations. The actions taken after the prior audit would
     have affected only contracts awarded in FY 1999. We saw no significant
     reductions in violations of Buy American Act and Berry Amendment procedures for
     those contracting actions. Further, four military installations (Letterkenny Army




                                          13
Depot, the Military Academy, FISC Bremerton, and the Air Force Academy) that
had violations identified in the prior audit also had violations identified in this audit.

The Army, Navy, and Air Force investigated the contracts under their cognizance
for potential Antideficiency Act violations. None of the investigations concluded
that there was an Antideficiency Act violation. The Army stated that, although
violations of the Berry Amendment and the Buy American Act may have occurred,
such violations do not give rise to a violation of the Antideficiency Act. The Army
did not provide the rationale for its position. The Navy stated that even though the
contracts did not comply with the Buy American Act, they did not violate the
appropriation act restrictions on the availability of funds absent compliance with the
Buy American Act. The Navy concluded that the Buy American Act is a domestic
content restriction, and that DFARS 212.503(a)(xi), “Applicability of Certain Laws
to Executive Agency Contracts for the Acquisition of Commercial Items,” makes
domestic content restrictions of the appropriation acts inapplicable to procurements
of commercial items. The Air Force used rationale similar to that used by the Navy
to conclude that no Antideficiency Act violations occurred.

General Counsel, DoD, Position on the Applicability of the Antideficiency Act
to Violations of the Buy American Act and Berry Amendment. We disagreed
with the conclusions reached by the Military Departments in their investigations of
the potential Antideficiency Act violations. During the October 12, 1999,
mediation meeting with the Navy, we determined that the DoD Deputy General
Counsel (Acquisition and Logistics) was considering the effect of DFARS
212.503(a)(xi) on DoD procurements. Because no General Counsel position had
yet been issued, we formally recommended that the General Counsel establish a
DoD position regarding the applicability of the Antideficiency Act to violations of
the Buy American Act in our December 2000 report on the free weight acquisitions.
On January 18, 2002, the Office of General Counsel, DoD, opined that a violation
of the Buy American Act may give rise to a potential violation of the Antideficiency
Act. The Office of General Counsel further opined that the Buy American Act
applied to commercial item procurements. However, DFARS 215.503(a)(xi)
created sufficient ambiguity to make a contrary conclusion reasonable, albeit
incorrect. Accordingly, the Office of General Counsel made its opinion prospective
and declined to treat past violations of the Buy American Act as Antideficiency Act
violations. The General Counsel was not asked to comment on the effect of Berry
Amendment violations and did not do so. However, the DFARS provision upon
which the dispute was predicated purported to exempt commercial purchases from
domestic content restrictions contained in Appropriation language in 1996 and later.
Because the Berry Amendment was essentially made permanent prior to that date,
the DFARS provision was not applicable.

Additional Proactive Action Needed. To improve compliance with the Buy
American Act and Berry Amendment and reduce the risk of potential Antideficiency
Act violations, we believe the Acquisition Executives for the Army, Navy, Air
Force, and USSOCOM should establish clearance review procedures or additional
training concerning solicitations and contract awards for clothing items to ensure
Buy American Act and Berry Amendment provisions and clauses are included in
solicitations and contracts, and that contractors comply with the provisions and




                                       14
    clauses. As stated previously, legal and technical reviews were either not
    performed or were not adequate to ensure compliance with the Buy American Act
    and the Berry Amendment.


Management Comments on the Report and Audit Response
    The USSOCOM commented extensively on the report. See Appendix F for a
    summary of the USSOCOM comments and the audit response.


Recommendations, Management Comments, and Audit
Response
    Revised and Redirected Recommendations. As a result of management
    comments, we revised Recommendation 1. to include additional training as an
    alternative to establishing special procedures for clothing procurements. As a result
    of a January 18, 2002, Office of General Counsel, DoD, decision to not treat any
    past violations of the Buy American Act as potential violations of the Antideficiency
    Act, we revised Recommendation 2. to remove potential Antideficiency Act
    violations arising from purchases that did not comply with the Buy American Act.
    We also deleted the Navy as an addressee because the recommendation no longer
    applies to the Navy.

    1. We recommend that the Acquisition Executives for the Army, Navy, Air
       Force, and U.S. Special Operations Command establish special procedures
       or additional training concerning solicitations and contract awards for
       clothing procurements subject to the Buy American Act and the Berry
       Amendment.

    Army Comments. The Army stated that current procedures coupled with a stern
    field reminder should preclude, or at least lessen, violations in future Army
    Acquisitions of military clothing. On February 14, 2002, the Army Acquisition
    Executive issued a memorandum reminding the Army Principal Assistants
    responsible for contracting of the Buy American Act and Berry Amendment
    restrictions and enjoining them to comply on future acquisitions.

    Navy Comments. The Navy nonconcurred. The Navy stated that sufficient
    contracting officer and legal review procedures already exist for the procurements.
    The Navy recognized that some contracting officers may not be sufficiently familiar
    with the Buy American Act guidance and stated that those Navy activities involved
    will conduct refresher training on Buy American Act responsibilities. The Navy
    included, as a special interest item, a review of procurements involving Buy
    American Act and Berry Amendment restrictions in its triennial procurement
    performance management assessments of field activities, and will conduct on-site
    training if deficiencies are identified. Additionally, in May 2001, the Navy issued a
    memorandum requesting contracting activities to reemphasize to contracting and
    acquisition personnel the importance and significance of the Buy American Act and
    the Berry Amendment (See Appendix G). The Navy also changed its acquisition



                                         15
procedures supplement to restrict authority to make determinations concerning the
Berry Amendment to the Secretary of the Navy and rescinded all existing
delegations of that authority.

Air Force Comments. The Air Force concurred. The Air Force stated that major
commands have either developed, or are in the process of developing, training and
tools to help ensure compliance with the Buy American Act and the Berry
Amendment. The Air Force is also developing a comprehensive training module on
the laws and will deploy the training across the Air Force by July 12, 2002. The
training will cover the Buy American Act and the Berry Amendment history, usage,
exceptions, and penalties for noncompliance. Additionally, the Air Force will
review Buy American Act and Berry Amendment procedures in the DFARS and the
Air Force FAR Supplement to ensure that they contain clear and concise guidance
for contracting officers.

USSOCOM Comments. The USSOCOM did not comment specifically on the
recommendation. However, in its comments on the Finding, USSOCOM stated
that it agreed that application of the Buy American Act and the Berry Amendment is
difficult and deserves additional attention. Application of the laws has always been
a difficult area of the FAR and DFARS to implement. USSOCOM stated that it
will present training on the proper handling of Buy American Act and Berry
Amendment issues.

Audit Response. Management comments are responsive. The actions taken and
planned by management satisfy the intent of the recommendation.

2. We recommend that the Assistant Secretaries (Financial Management and
Comptroller) of the Army and the Air Force initiate, for the contracts under
their cognizance listed in Table 6 of this report, investigations of the potential
Antideficiency Act violations arising from the use of appropriated funds to
purchase items that do not comply with the Berry Amendment, fix
responsibility, and if any violations of the Antideficiency Act occurred, comply
with reporting requirements in DoD Directive 7200.1 and the DoD Financial
Management Regulation. The Assistant Secretaries should also provide a copy
of the preliminary review reports and the final formal investigation reports to
the Inspector General, DoD.

Army Comments. The Army nonconcurred, stating there is no reason to conclude
that Letterkenny Army Depot committed a potential Antideficiency Act violation
when it purchased safety shoes that did not comply with the Berry Amendment
because no individual delivery order or the total value of all the delivery orders
exceeded $100,000. Concerning potential Antideficiency Act violations that
resulted from violations of the Buy American Act, the Army stated that if the
General Counsel, DoD, determines that a potential Antideficiency violation occurs
because of a violation of the Buy American Act, the Army will initiate
investigations to determine whether an Antideficiency Act violation occurred.

Navy Comments. The Navy concurred with the draft report recommendation that
potential Antideficiency Act violations that resulted from violations of the Buy




                                     16
American Act be investigated. The Navy stated that the Commander, Naval Supply
Systems Command, has been requested to complete a preliminary review into
possible Antideficiency Act violations identified in the report.

Air Force Comments. The Air Force concurred, stating that it has begun
preliminary review of the items that may not comply with the Berry Amendment or
the Buy American Act. The Air Force stated that it has initially found that there is
not reason to conclude that the Air Force Academy committed an Antideficiency
Act violation when they purchased athletic shoes that did not comply with the Berry
Amendment because no delivery order exceeded $100,000. The Air Force further
stated that purchases of foreign made items under the Buy American Act may not
have violated the Antideficiency Act, and have been elevated to the Office of the
General Counsel, DoD, for a decision.

Audit Response. The Army and Air Force comments on the investigation of
potential Antideficiency Act violations are not responsive. We disagree with Army
and Air Force position that there is no reason to conclude that potential
Antideficiency Act violations occurred when they purchased shoes that did not
comply with the Berry amendment because the delivery orders did not exceed
$100,000 (the simplified acquisition threshold). The orders were issued under
indefinite-delivery, indefinite-quantity (IDIQ) contracts with estimated values in
excess of $100,000. The Army contract had an estimated value of $775,131
(including an estimated $346,460 for shoes manufactured in nonqualifying
countries). Air Force contracts F05611-99-D-M502 and F05611-98-D-M001 had
estimated values of $404,273 and $139,382, respectively, for shoes manufactured in
nonqualifying countries. Unless an exception applies, DFARS 225.7002-3 requires
that the Berry Amendment clause (252.225-7012) be included in all solicitations and
contracts that exceed the simplified acquisition threshold. No exceptions apply to
the procurements in question. Additionally, FAR 16.506(a), “Solicitation
Provisions and Contract Clauses,” requires that FAR 52.216-18, “Ordering,” be
included in IDIQ contracts. FAR 52.216-18 states that all delivery orders are
subject to the terms and conditions of the IDIQ contract. That is, if the estimated
value of an IDIQ contract exceeds the simplified acquisition threshold, the contract
and all delivery orders issued under the contract must comply with the laws and
regulations that apply to procurements that exceed the simplified acquisition
threshold. Delivery orders under an IDIQ contract cannot be used to circumvent
procurement laws and regulations. We ask that the Army and Air Force reconsider
their position on the recommendation and respond to the final report.

The Office of General Counsel, DoD, declined to treat any past violations of the
Buy American Act as potential violations of the Antideficiency Act. Therefore, the
Army, Navy, and Air Force are not required to investigate the 25 violations of the
Buy American Act shown in Table 4 of the report as potential Antideficiency Act
violations.




                                     17
Appendix A. Audit Process

Scope
    The audit examined purchases of military clothing and related items in excess of the
    micro-purchase threshold ($2,500) by military installations during FYs 1998 and
    1999 for compliance with the Buy American Act and Berry Amendment. We also
    evaluated DoD actions taken after the issuance of Inspector General, DoD, Report
    No. 99-023 on October 29, 1998.

    General Accounting Office High-Risk Area. The General Accounting Office has
    identified several high-risk areas in the Department of Defense. This report
    provides coverage of the Contract Management high-risk area.


Methodology
    We used the Buy American Act, the Berry Amendment, and the FAR and DFARS
    implementing guidance as criteria for determining whether contracting officers
    complied with the Buy American Act and the Berry Amendment when they
    procured military clothing and related items. We analyzed the contracts for 698 of
    FYs 1998 and 1999 procurements of military clothing and related items. We
    interviewed contractors and reviewed contractor catalogs and other documents to
    determine the place of manufacture of the items procured. We discussed with
    contracting officers the process for procuring military clothing and related items
    and for ensuring compliance with the Buy American Act and the Berry
    Amendment. On contracts with items manufactured in a foreign country, we
    visited the responsible military installations, discussed the procurements with
    contracting and supply officials, and reviewed additional procurement
    documentation, such as Buy American Act certificates; findings and determinations;
    and price adjustment calculations, to determine whether the procurements were in
    compliance with the Buy American Act or the Berry Amendment as applicable.

    Use of Computer-Processed Data. We relied on computer-processed data from
    the DCADS database to identify contract actions more than $25,000. We assessed
    the reliability of the data in the system concerning the identification of contract
    numbers, award dates, and dollar amounts of the transactions. We determined that
    the contract numbers and dollar amounts in the database generally agreed with the
    contract documents. We did not find errors that would preclude use of the
    computer-processed data to meet the audit objectives or that would change the
    conclusions in the report.

    Universe. The DCADS shows that 144 installations executed 3,203 contract
    actions valued at more than $25,000 for items in Federal supply classification (FSC)
    codes 8415, 8430, 8435, and 8465 during FYs 1998 and 1999. The Air Force
    Academy identified three additional contract actions over $25,000 that, for
    undetermined reasons, were not in the DCADS universe. The total value of the
    3,206 contract actions was about $1.15 billion. Additionally, 41 of the


                                         18
144 installations with contract actions valued at more than $25,000 identified
658 contract actions for military clothing and related items valued between
$2,500 and $25,000. Three military installations that had violations of the Buy
American Act identified in the prior audit, but did not have any procurements
valued more than $25,000 in FYs 1998 and 1999, identified 11 FYs 1998 and 1999
contract actions valued between $2,500 and $25,000. The total value of the
669 contract actions valued between $2,500 and $25,000 was about $5.5 million.
The FSC codes cover the following types of military clothing and related items:

        •   FSC 8415-Special purpose clothing: special purpose headwear,
            including helmets, except ballistic protective; safety and protective
            clothing; athletic clothing; safety, combat, protective, and work gloves;
            submarine deck exposure clothing; flight clothing components designed
            for use with both specialized and conventional ensembles.

        •   FSC 8430-Men's footwear: rubber footwear, athletic footwear, safety
            footwear, submarine deck exposure footwear.

        •   FSC 8435-Women's footwear: rubber footwear, athletic footwear,
            safety footwear.

        •   FSC 8465-Individual equipment: musette bags, duffel bags, ammunition
            belts, pistol belts, handcuffs, packboards, sleeping bags, knapsacks,
            hiker's packs, sunglasses, skis, snowshoes, swords with scabbards.

Sample. To develop the audit sample, we excluded the following from the universe
of contract actions greater than $25,000: the 2,654 actions that were awarded by
the Defense Logistics Agency, the 88 actions awarded by military installations with
two or fewer actions for FSC 8415 and FSC 8465, and the 43 actions that were
awarded by overseas military installations. We selected 421 contract actions
awarded by 62 military installations that awarded three or more contract actions for
military clothing or related items, unless the military installation awarded an action
for FSC 8430 or FSC 8435. We selected all contracting actions for footwear for
review because the prior audit determined that 14 of the 16 contracting actions that
did not comply with the Buy American Act or the Berry Amendment were
purchases of footwear. For contract actions less than $25,000, we judgmentally
sampled the actions identified by the 62 military installations that awarded contract
actions more than $25,000, and by 3 military installations that had Buy American
Act violations on the prior audit. The following is a list of military installations and
the number and dollar range of the contract actions reviewed:




                                      19
                                         Contract Actions Reviewed
                                                        $2,500 to   $25,000 to     More than
           Military Installation                         $25,000     $100,000      $100,000     Total

           Army
      Anniston Army Depot, AL 1/ 4/                          9           2              0        11
      Army Engineer District, Philadelphia, PA 1/ 4/         2           5              0         7
      Army Material Command Acquisition
       Center, Aberdeen Proving Ground, MD 1/ 2/             5           8              4        17
      Army Material Command Acquisition
       Center, Natick, MA 1/ 4/                              5          15             23        43
      Army Soldiers Systems Command, MA 1/ 2/                5           7             25        37
      Fort Benning, GA 1/ 4/                                 4           2              1         7
      Fort Carson, CO 1/ 2/                                  0           4              1         5
      Fort Drum, NY 1/ 4/                                    0           4              0         4
      Fort Hood, TX 1/ 4/                                    0           3              1         4
      Fort Knox, KY 1/ 2/                                    4           3              0         7
      Fort Lewis, WA 1/ 3/                                   0           4              2         6
      Fort Polk, LA 1/ 2/                                    0           2              4         6
      Letterkenny Army Depot, PA 1/ 2/                       0           0              4         4
      Military Academy, NY 1/ 2/                             5           8              2        15
      Tobyhanna Army Depot, PA 1/ 4/                         5           1              0         6
      USPFO for Alabama 1/ 4/                                1           1              0         2
      USPFO for Iowa 1/ 4/                                   0           3              0         3
      USPFO for Kansas 1/ 4/                                 5           1              0         6
      USPFO for Kentucky 1/ 4/                               0           2              0         2
      USPFO for Massachusetts 1/ 4/                          2           1              0         3
      USPFO for Montana 1/ 4/                                5           1              0         6
      USPFO for Nevada 1/ 4/                                 1           1              0         2
      USPFO for New Mexico 1/ 4/                             0           1              0         1
      USPFO for North Carolina 1/ 4/                         0           6              1         7
             Sub-Total                                      58          85             68       211

          Navy
      FISC, Bremerton, WA 1/ 2/                              9          18             32        59
      FISC, Norfolk, VA 1/ 2/                                5          11              2        18
      FISC, Pearl Harbor, HI 1/ 3/                           5           1              2         8
      FISC, Philadelphia, PA 1/ 3/                           0           0              2         2
      FISC, San Diego, CA 1/ 3/                             12           9              0        21
      FISC, Washington, DC 1/ 4/                             0           2              1         3

           USPFO: United States Property and Fiscal Office
           FISC: Fleet and Industrial Supply Center

Footnotes:
1/
   One or more contracts included incorrect or no Buy American Act or Berry Amendment clauses
2/
   Similar problems found at the installation during the prior audit
3/
   No problems found at the installation during the prior audit
4/
   Not reviewed during the prior audit




                                                       20
                              Contract Actions Reviewed (cont’d)
                                                      $2,500 to     $25,000 to     More than
           Military Installation                       $25,000       $100,000      $100,000     Total

          Navy
      NCBC, Gulfport, MS 1/ 4/                            1              3              0         4
                                   1/ 4/
      NSWC, Panama City, FL                               2              3             11        16
        Sub-Total                                        34             47             50       131

          Air Force
      Air Force Academy, CO 1/ 2/                         1             10             12        23
      Beale Air Force Base, CA 1/ 4/                      0              3              0         3
      Cannon Air Force Base, NM 1/ 4/                     5              1              0         6
      Dover Air Force Base, DE 1/ 2/                      5              7              0        12
      Edwards Air Force Base, CA 1/ 4/                    7              2              1        10
      Eielson Air Force Base, AK 1/ 2/                    0              1              0         1
      Elmendorf Air Force Base, AK 1/ 2/                  7             11              0        18
      Fairchild Air Force Base, WA 1/ 2/                 20              5              0        25
      General Mitchell International Airport- Air
        Reserve Station, Milwaukee, WI 1/ 4/              4              0              1         5
      Goodfellow Air Force Base, TX 1/ 2/                25              4              0        29
      Grand Forks Air Force Base, ND 1/ 2/               52              8              0        60
      Hickam Air Force Base, HI 1/ 4/                     1              4              0         5
      Homestead Air Reserve Base, FL 1/ 2/                5              0              0         5
      Hurlburt Field, FL 1/ 2/                            2              8              1        11
      Keesler Air Force Base, MS 1/ 2/                    2              2              0         4
      Langley Air Force Base, VA 1/ 2/                    5              8              6        19
      Luke Air Force Base, AZ 1/ 4/                       1              3              0         4
      Malmstrom Air Force Base, MT 1/ 4/                  0              4              1         5
      Maxwell Air Force Base, AL 1/ 2/                    3              6              7        16
      McGuire Air Force Base, NJ 1/ 4/                    0              2              0         2
      Minot Air Force Base, ND 1/ 2/                      0              4              0         4
      Mississippi Air National Guard
       Meridian, MS 2/                                    3              0              0         3
      Mountain Home Air Force Base, ID 1/ 4/              0              2              0         2
      Nellis Air Force Base, NV 1/ 2/                     5              4              1        10
      Peterson Air Force Base, CO 1/ 3/                   4              2              2         8
      Pittsburgh Air Reserve Station, PA 1/ 2/            3              0              0         3


          NCBC: Naval Construction Battalion Center
          NSWC: Naval Surface Warfare Center

Footnotes:
1/
   One or more contracts included incorrect or no Buy American Act or Berry Amendment clauses
2/
   Similar problems found at the installation during the prior audit
3/
   No problems found at the installation during the prior audit
4/
   Not reviewed during the prior audit




                                                    21
                                        Contract Actions Reviewed (cont’d)
                                                       $2,500 to      $25,000 to     More than
               Military Installations                   $25,000        $100,000      $100,000     Total

             Air Force
         Shaw Air Force Base, SC 1/ 4/                      0              1              0         1
         Tinker Air Force Base, OK 1/ 2/                    3              4              0         7
         Wright Patterson Air Force Base, OH 1/ 2/          2              9              1        12
             Sub-Total                                    165            115             33       313

             Marine Corps
         Marine Corps Systems Command,
          Quantico, VA 1/ 3/                                0              1              8         9

             Unified Command
         U.S. Special Operations Command,
          MacDill Air Force Base, FL 1/ 4/                  0              0              6         6
         Naval Special Warfare Development Group
          Virginia Beach, VA 1/ 4/                         12             12              1        25
         Naval Special Warfare Group 1, CA 1/ 4/            0              3              0         3
              Sub-Total                                    12             15              7        34

       Total                                              269            263           166        698

  Footnotes:
  1/
     One or more contracts included incorrect or no Buy American Act or Berry Amendment clauses
  2/
     Similar problems found at the installation during the prior audit
  3/
     No problems found at the installation during the prior audit
  4/
     Not reviewed during the prior audit



       Audit Type, Dates, and Standards. We performed this program audit from
       December 2000 through August 2001 in accordance with generally accepted
       government auditing standards.

       Contacts During the Audit. We visited or contacted individuals and organizations
       within the DoD, the General Services Administration, and private companies.
       Further details are available upon request.


Management Control Program Review
       DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
       and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
       August 28, 1996, require DoD organizations to implement a comprehensive system
       of management controls that provides reasonable assurance that programs are
       operating as intended and to evaluate the adequacy of the controls.

       Scope of Review of Management Control Program. We reviewed the adequacy
       of the management controls over procurement of military clothing and related items
       at DoD contracting offices visited. Specifically, we examined management controls



                                                     22
     over compliance with the Buy American Act and the Berry Amendment when
     procuring military clothing and related items. We also reviewed the adequacy of
     management’s self-evaluation of management controls.

     Adequacy of Management Controls. We identified material management control
     weaknesses as defined by DoD Instruction 5010.40. The Army, Navy, and Air
     Force had not implemented adequate management controls over contracting actions
     to ensure compliance with the Buy American Act and the Berry Amendment. The
     audit identified purchases of clothing items that do not comply with the Buy
     American Act and the Berry Amendment. The noncompliance occurred because
     management controls did not always ensure appropriate clauses were included in the
     solicitations and contracts, and when the clauses were included, the controls did not
     ensure the clauses were enforced. In some instances, the items were purchased
     even though the contractors identified the items as foreign made in their catalogs or
     through the Buy American certification process. Recommendations 1. and 2. in this
     report, if implemented, will assist in correcting the weaknesses. A copy of the
     report will be provided to the senior official responsible for management controls in
     the Army, the Navy, and the Air Force.

     Adequacy of Management’s Self-Evaluation. Management’s self-evaluation was
     not adequate. The Army, the Navy, and the Air Force organizations included in
     the audit did not identify compliance with the Buy American Act and Berry
     Amendment as topics for self-assessment and, therefore, did not identify or report
     the material management control weaknesses identified by the audit.


Prior Coverage

General Accounting Office
     GAO Report No. GAO-01-695T, Testimony Before the Committee on Small
     Business, House of Representatives, “Contract Management: Purchase of Army
     Black Berets,” May 2, 2001


Inspector General, DoD
     Report No. D-2001-028, “Compliance with Procurement Laws in Purchasing Free
     Weights and Other Strength Building Equipment,” December 27, 2000

     Report No. D-2000-102, “Military Working Dog Procurements,” March 14, 2000

     Report No. 99-023, “Procurement of Military Clothing and Related Items by
     Military Organizations,” October 29, 1998




                                          23
Appendix B. FAR and DFARS Guidance Revised
            After Contracts Reviewed Were
            Awarded and Discussion of the
            Guidance
The FAR and DFARS guidance that was in effect when the contracts were awarded is cited
in this report. The current guidance makes no substantive change to FAR or DFARS
policy pertaining to foreign acquisition.

Previous Guidance              Current Guidance                Effective Dates, Number
FAR 4.805(b)(10)               FAR 4.805(b)(5)(ii)             August 7, 2000 (FAC 97-18)
FAR 25.108                     FAR 25.104                      February 25, 2000 (FAC 97-15)
FAR 52.225-3                   FAR 52.225-1                    February 25, 2000 (FAC 97-15)
FAR 52.225-9                   FAR 52.225-5                    February 25, 2000 (FAC 97-15)
DFARS 225.102                  DFARS 225.103                   April 13, 2000 (DCN 20000413)
DFARS 225.102(b)(i)            DFARS 225.103(b)(i)             April 13, 2000 (DCN 20000413)
DFARS 225.105                  DFARS 225.502(2)                April 13, 2000 (DCN 20000413)
DFARS 225.109(a)               DFARS 225.1101(1)               April 13, 2000 (DCN 20000413)
DFARS 225.109(b)               DFARS 225.171(a)                April 13, 2000 (DCN 20000413)
DFARS 225.109(d)               DFARS 225.1101(2)               April 13, 2000 (DCN 20000413)
DFARS 225.403-70               DFARS 225.401-70                April 13, 2000 (DCN 20000413)
DFARS 212.503(a)(xi)           DFARS 212.503(a)(xi)            December 13, 2000
                                                                 (DCN 20001213)
       DCN: DFARS Change Notice
       FAC: Federal Acquisition Circular


Discussion of the Guidance
The Buy American Act. The Buy American Act states in part:

                  Notwithstanding any other provision of law, and unless the head of
                  the Federal Agency concerned shall determine it to be inconsistent
                  with the public interest, or the cost to be unreasonable, only such
                  unmanufactured articles, materials, and supplies as have been mined
                  or produced in the United States, and only such manufactured articles,
                  materials, and supplies as have been manufactured in the United
                  States substantially all from articles, materials, or supplies mined,
                  produced, or manufactured, as the case may be, in the United States,
                  shall be acquired for public use. . . . (10 U.S.C. 10a)




                                               24
Buy American Act Implementing Guidance. The following DFARS
provisions and clauses implement the Buy American Act in DoD.

       •   DFARS 225.102 “Buy American Act-Supplies, Policy,” requires
           contracting officers to obtain a determination that the item is not
           reasonably available when no domestic offer is received or domestic
           offers are insufficient to meet the requirement and the award is made
           based on a nonqualifying country end product.

       •   DFARS 225.105 “Evaluating Offers,” stipulates that contracting
           officers will evaluate offers by adding a 50 percent factor to the price of
           each nonqualifying country offer, if domestic offers are received.

       •   DFARS 252.225-7000, “Buy American Act - Balance of Payments
           Program Certificate,” must be included in solicitations for contracts
           where supplies are required, unless the solicitation includes either the
           DFARS Trade Agreements Act clause or the DFARS North American
           Free Trade Agreement clause. The Trade Agreements Act and the
           North American Free Trade Agreement do not apply to military clothing
           and related items (DFARS 225.403-70). DFARS 252.225-7000
           requires offerors to certify each end product, as domestic, qualifying
           country, or nonqualifying country.

       •   DFARS 252.225-7001, “Buy American Act and Balance of Payments
           Program,” must be included in solicitations and contracts where supplies
           are required. This clause implements the Buy American Act in a
           manner that provides a preference to domestic end products over other
           end products, except for end products that are qualifying country end
           products. A domestic end product is defined as an unmanufactured end
           product mined or produced in the United States, an end product
           manufactured in the United States, or an end product manufactured in
           the United States if the costs of its qualifying country components and
           its components which are mined, produced, or manufactured in the
           United States exceeds 50 percent of the cost of all its components.

The Berry Amendment. Beginning in FY 1993, the Berry Amendment
(10 U.S.C. 2241 note) was effectively made permanent when Public Law 102-396,
“Department of Defense Appropriation Act, 1993,” section 9005 included the
language “during the current fiscal year and hereafter … .” In FY 1994, the Berry
Amendment was expanded to prohibit the use of appropriated funds or “any other
funds available to the Department of Defense” by Public Law 103-139,
“Department of Defense Appropriations Act, 1994,” section 8005. Section 4401(e)
of Public Law 103-355, “Federal Acquisition Streamlining Act of 1994,”
subsequently modified the Berry Amendment to incorporate the simplified
acquisition threshold (currently $100,000). Prior versions of the Berry Amendment
referred to the small purchase threshold. Section 832 of Public Law 107-107,
“National Defense Authorization Act for Fiscal Year 2002,” repealed the Berry
Amendment, modified its provisions, and codified the modified provisions at
10 U.S.C. 2533a. The new statute, as did the Berry Amendment, requires that
appropriated funds or any other funds available to DoD not be used for the
procurement of food, clothing, and other specified items in amounts greater than the



                                     25
simplified acquisition threshold unless the items are grown, reprocessed, reused, or
produced in the United States or its possessions. We cite the Berry Amendment
throughout this report because the Berry Amendment was in effect when the
contract actions discussed in the report were awarded.

Berry Amendment Implementing Guidance. DoD has included several
exceptions to the Berry Amendment restrictions in DFARS 225.7002-2. The
following two exceptions apply to military clothing and related items.

        •   Swords and scabbards may be purchased from foreign sources because
            they are not manufactured in the United States or its possessions in
            sufficient and reasonably available commercial quantities of a
            satisfactory quality.

        •   Chemical warfare protective clothing may be purchased from a
            qualifying country when the purchase furthers an existing agreement.

Procurements of other military clothing and related items must comply with the
Berry Amendment restrictions unless the Secretary of the Military Department
concerned, or designee, determines that items produced in the United States or its
possessions cannot be acquired in satisfactory quality and quantity at United States
market prices. Unless an exception applies, contracting officers must include the
clause at DFARS 252.225-7012 in all solicitations and contracts that exceed the
simplified acquisition threshold (DFARS 225.7002-3(a), “Contract Clauses”). The
clause specifies that the contractor agrees to deliver items that have been grown,
reprocessed, reused, or produced in the United States, its possessions, or Puerto
Rico.

Applying the Buy American Act and the Berry Amendment. In general, the
FAR requires that only domestic products be acquired for public use in the United
States on procurements that exceed the $2,500 micropurchase ceiling. The DoD
has determined that it is inconsistent with the public interest to apply the restrictions
of the Buy American Act and Balance of Payments Program to acquisitions for
public use of certain supplies that are mined, produced, or manufactured in the
17 foreign countries where memoranda of understanding or other international
agreements exist. Individual acquisitions for products of four additional qualifying
countries may, on a purchase-by-purchase basis, be exempted from application of
the Buy American Act and Balance of Payments Program as inconsistent with the
public interest. The 21 countries are identified as “qualifying countries” in
DFARS 225.872, “Contracting with Qualifying Country Sources.” To comply with
the Buy American Act, contracting officers must add 50 percent to the price of
nonqualifying country end-products when evaluating offers with domestic end-
products and offers with nonqualifying country end-products. A nonqualifying
country is a country other than the United States or one of the 21 qualifying
countries listed in DFARS 225.872 (see Appendix C).




                                       26
Appendix C. Qualifying Countries Listed in
            DFARS 225.872
The Buy American Act and the Balance of Payments Program does not apply to the
acquisition of defense equipment which is mined, produced, or manufactured in any of the
qualifying countries listed below.

                                  Qualifying Countries

       Australia                                    Belgium
       Canada                                       Denmark
       Egypt                                        Federal Republic of Germany
       France                                       Greece
       Israel                                       Italy
       Luxembourg                                   Netherlands
       Norway                                       Portugal
       Spain                                        Switzerland
       Turkey                                       United Kingdom of Britain and
                                                        Northern Ireland

The acquisition of products manufactured in the following qualifying countries may be
exempted from the Buy American Act and the Balance of Payments Program on a
purchase-by-purchase basis.

                                  Qualifying Countries

       Austria
       Finland
       Sweden




                                            27
Appendix D. Procurements that Did Not Comply
            with the Buy American Act or the
            Berry Amendment

Army Organizations
    Fort Knox

    Contract: DABT23-98-P-1238 and DABT23-99-P-0766
    Awarded: September 24, 1998, and September 23, 1999
    Type of Contract: Purchase Orders
    Contract Value: $49,207 and $36,653 (includes $15,785 and $26,778
                     respectively for T-shirts manufactured in nonqualifying
                     countries)
    Items Purchased: T-Shirts with Silk-Screened Logo
    Procurement Method: Competitive, Non-competitive
    Contractor: United States Disciplinary Barracks, Fort Leavenworth, KS

    Details: The Fort Knox contracting officer awarded the purchase orders to the
    United States Disciplinary Barracks (USDB), a nonappropriated fund activity.
    Complete details on purchase order DABT23-98-P-1238 were not available because
    the purchase order file was destroyed 1 year after final payment as permitted by
    FAR 4.805(b)(10). Available documents indicate that DABT23-98-P-1238 was
    competitively awarded, and that DABT23-99-P-0766 was noncompetitively
    awarded. The contracting officer incorrectly included FAR 52.225-3, “Buy
    American Act-Supplies,” in purchase order DABT23-98-P-1238. We could not
    determine the clauses incorporated in DABT23-99-P-0766. A Buy American
    Act/Balance of Payment Program certificate, required by both the FAR and the
    DFARS, in which prospective contractors certify that, except as indicated, the
    products offered are domestic end products was not available for the purchase
    orders. Both purchase orders included T-shirts manufactured in nonqualifying
    countries (mostly Mexico, El Salvador, Honduras, and Guatemala) imprinted with
    the Reserve Officer Training Corps logo. The USDB contracting officer did not
    include any Buy American Act clauses in purchase order NAFTL1-99-M-0061 for
    the T-shirts purchased under purchase order DABT23-98-P-1238, but did include a
    Buy American Act, Trade Agreements Act, and Balance of Payments Program
    clause in purchase order NAFTL1-00-M-0103 for the T-shirts furnished under
    DABT23-99-P-0766. However, the Trade Agreements Act does not apply to
    clothing, and the T-shirts do not qualify as domestic or qualifying country end
    products under the Buy American Act. To qualify as a domestic end product or a
    qualifying country end product, an item must be manufactured in the United States
    or in a qualifying country of United States components or qualifying country
    components that exceed 50 percent of the cost of all the components. Contracting
    officials at Fort Knox did not know that the T-shirts supplied by USDB were not
    domestic end products and stated that, because they were purchasing the T-shirts
    from another DoD installation, they believed that laws such as the Buy American
    Act were complied with and that they did not try to determine where the T-shirts


                                        28
were manufactured. The USDB purchase of T-shirts that were not in compliance
with the Buy American Act resulted in Fort Knox purchasing from USDB items that
were not in compliance with the Buy American Act. The USDB contracting officer
stated that he wanted to satisfy the customer and that he was not aware that the
T-shirts were manufactured in nonqualifying countries. In phone conversations, a
Fort Knox official informed the USDB screen print supervisor of the brand name
T-shirts that would match the color of T-shirts on-hand at Fort Knox. The screen-
print supervisor provided the contracting officer with the suggested sources for the
specified T-shirts, and the contracting officer awarded the purchase orders without
questioning where the T-shirts were manufactured.

Contract: DABT23-99-M-0390
Awarded: September 23, 1999
Type of Contract: Purchase Order
Contract Values: $8,956 (includes $4,666 for polo shirts manufactured in
                 nonqualifying countries)
Items Purchased: Polo Shirts
Procurement Method: Competitive
Contractor: AD Works Specialty Advertising, Jeffersonville, IN

Details: The contracting officer issued the purchase order for polo shirts with an
embroidered patch and writing. The contracting officer incorrectly included FAR
clause 52.225-3 in the purchase order. The contracting officer should have
included DFARS 252.225-7001 as required by DFARS 225.109, “Evaluating
Offers.” A Buy American Act/Balance of Payment Program certificate, required
by both the FAR and the DFARS, in which prospective contractors certify that,
except as indicated, the products offered are domestic end products was not in the
purchase order file. The contractor told us that the polo shirts were manufactured
in Jamaica, Costa Rica, or Honduras. The polo shirts do not qualify as domestic or
qualifying country end products. To be considered a domestic or qualifying
country end product, the item must be manufactured in the United States or a
qualifying country of United States components or qualifying country components
that exceed 50 percent of the cost of all the components. The contracting officer
stated that oral solicitations were used for the purchase order and that it is normal
practice at Fort Knox to telephone three potential vendors for price quotations when
oral solicitations are used. The purchase order file contained no evidence that the
AD Works Specialty Advertising, or any other vendor that was orally solicited, was
advised, as required by DFARS 225.109(b), that only domestic or qualifying
country end products are acceptable unless the price of a nonqualifying country end
product is the low offer under the evaluation procedures in DFARS 225.105.
Additionally, the purchase order file does not contain the determination by a level
above the contracting officer that the polo shirts are not reasonably available from
domestic sources as required by DFARS 225.102 before awarding a purchase order
for nonqualifying country end products.




                                     29
Letterkenny Army Depot

Contract: DAAC67-97-D-0002
Awarded: July 28, 1997
Type of Contract: Indefinite-Delivery, Indefinite-Quantity
Contract Value: $775,131 (includes $343,460 for safety footwear
                 manufactured in nonqualifying countries)
Items Purchased: Safety Shoes
Procurement Method: Competitive
Contractor: Iron Age Protective Company, Pittsburgh, PA

Details: The contracting officer included in the solicitation a requirement that the
contractor provide safety footwear in various types and sizes through a mobile
service to authorized employees of Letterkenny Army Depot. The contracting
officer included the Berry Amendment clause, DFARS 252.225-7012, in the
solicitation and contract. However, the contracting officer did not obtain the
Secretary of the Army determination required by DFARS 225.7002-2 that shoes
manufactured by the United States or its possessions were not available before
awarding the contract to a contractor that supplied shoes manufactured in a
nonqualifying foreign country. The Commander, Letterkenny Army Depot initiated
a request for the determination but the request was not processed to completion
because an informal Army investigation of a potential Antideficiency Act violation
that resulted from FYs 1996 and 1997 procurements of safety shoes by Letterkenny
Army Depot, concluded that shoes are not a clothing item and therefore not covered
by the Berry Amendment. We do not agree that shoes are not a clothing item. The
Defense Supply Center Philadelphia “Guiding Principles for Acquisition,” and
various Army documents state that shoes are considered an item of clothing. The
contracting officer received two offers showing several styles of shoes, some
manufactured in nonqualifying countries, and some manufactured in the United
States. Contracting personnel compared the two offers, analyzing each line item
using the evaluation procedures and the 50 percent cost factor prescribed in
DFARS 225.105 for evaluating offers that included both domestic and
nonqualifying country end products under the Buy American Act. The contracting
officer awarded the contract to the low offeror. The total contract value was
$775,131 with an estimated $346,460 for shoes manufactured in nonqualifying
countries. During FYs 1998 and 1999, the contracting officer awarded 24 delivery
orders under the contract that included shoes manufactured in foreign countries.
Each of the 24 delivery orders was under the $100,000 threshold of the Berry
Amendment. However, the contracting officer should have applied the Berry
Amendment to the contract and each delivery order because the contract exceeded
the $100,000 Berry Amendment threshold, and the delivery orders are subject to
the terms and conditions of the basic contract (FAR 16.506). The total value of the
foreign made shoes included in the 24 delivery orders was $84,136.




                                     30
Military Academy

Contracts: DAAG60-98-M-0815 and DAAG60-99-P-0245
Awarded: July 10, 1998, and May 12, 1999
Type of Contract: Purchase Orders
Contract Values: $71,535 and $77,520 (Includes $5,795 and $5,320
                  respectively for blouses manufactured in a nonqualifying
                  country)
Items Purchased: Blouses, White
Procurement Method: Competitive
Contractor: Marlow White Uniform Company, Leavenworth, KS

Details: Both purchase orders were for blouses manufactured in China, a
nonqualifying country, as well as other items manufactured in the United States.
The contracting officer correctly included DFARS 252.225-7000 and 252.225-7001
in the solicitations for the purchase orders. However, the contractor did not
complete the certificate contained in DFARS 252.225-7000 that requires the
contractor to certify that the items provided are domestic end products, qualifying
country end products, or nonqualifying country end products. The contracting
officer stated that Marlow White had been providing the blouses to the Academy for
several years and she was not aware that the blouses were made in China. The
contracting officer did not obtain from a level above the contracting officer the
determination required by DFARS 225.102(b)(i), that the blouses are not
reasonably available from domestic sources before awarding the purchase orders to
a contractor that supplied nonqualifying country blouses.

Tobyhanna Army Depot

Contract: DAAC71-96-A-0318/0007 and 0009
Awarded: December 4, 1997, and April 16, 1998
Type of Contract: Blanket Purchase Agreement (BPA)
Contract Values: $3,546 and $5,048
Items Purchases: Gloves
Procurement Method: Credit Card
Contractor: Quint’s Incorporated, Scranton, PA

Details: The contracting officer placed both orders under blanket purchase
agreement DAAC71-96-A-0318 with Quint’s Incorporated. Complete details on the
orders and the agreement were not available because the contract files were
destroyed one year after final payment, as permitted by FAR 4.805(b)(10). The
contracting officer provided a copy of the standard form containing notices,
instructions, and special clauses that Tobyhanna Army Depot contracting officers
normally incorporate into contracts. The form incorrectly includes FAR
clause 52.225-3 instead of the applicable DFARS provision and clause. The
contracting officer should have included DFARS 252.225-7000 in the solicitation,
and DFARS 252.225-7001 in the BPA as required by DFARS 225.109. The
President of Quint’s Incorporated stated that the gloves were manufactured in
Vietnam, Malaysia, Mexico, and Hong Kong. The contracting officer stated that he
did not determine where the gloves were manufactured, although he believed the
specific gloves were not made domestically. The contracting officer did not obtain
the determination required by DFARS 225.102 that domestic gloves were not



                                    31
    reasonably available before making the award to Quint’s Incorporated, a contractor
    that supplied nonqualifying country gloves.


Navy Organizations
    Fleet and Industrial Supply Center (FISC) Bremerton

    Contracts: N00406-99-M-2951 and N00406-99-M-2820
    Awarded: November 12, 1998 (both)
    Type of Contract: Purchase Order
    Contract Values: $4,092 and $27,699
    Items Purchased: Anti-Vibration Gloves
    Procurement Method: Competitive
    Contractors: Safety and Supply Company, Seattle, WA, and Sound Safety
                 Products, Everett, WA

    Details: The gloves supplied by Safety and Supply and Sound Safety Products were
    obtained from Chase Ergonomics, Incorporated, Albuquerque, New Mexico. A
    representative of Chase Ergonomics stated that the gloves were made in China.
    The sole-source justifications for the purchase orders state that gloves made with
    gelfom are the only gloves known to meet American National Standards Institute or
    International Standards Organization standards for anti-vibration gloves. Chase
    Ergonomics holds a United States patent for leather gloves with gelfom. The
    sole-source justifications further state that several glove manufacturers were
    contacted and none could certify that their gloves met American National Standards
    Institute or International Standards Organization standards for anti-vibration gloves.
    Contracting officials familiar with the purchase orders stated that oral solicitations
    were used and that it is normal practice at FISC Bremerton to telephone three
    potential vendors for price quotations and to check country of origin when oral
    solicitations are used. Purchase order files showed that price quotations were
    obtained from three vendors that supply the gloves obtained from Chase
    Ergonomics. There was no evidence in the purchase order files that the contractors
    were advised, as required by DFARS 225.109(b), that only domestic or qualifying
    country end products are acceptable unless the price of a nonqualifying country end
    product is the low offer under the evaluation procedures in DFARS 225.105.
    Additionally, the purchase order files did not contain the determination by a level
    above the contracting officer that domestic gloves are not reasonably available as
    required by DFARS 225.102 before awarding a purchase order for nonqualifying
    country end products.

    Contract: N00406-98-D-5060-1004
    Awarded: July 12, 1999
    Type of Contract: Indefinite-Delivery, Indefinite-Quantity
    Order Value: $2,852
    Items Purchased: Latex Rubber Gloves
    Procurement Method: Competitive
    Contractor: Obbco Safety and Supply, Chesapeake, VA




                                         32
Details: The contracting officer incorrectly incorporated FAR and DFARS
provisions and clauses that cover the North American Free Trade Agreement
(NAFTA) in the solicitation and contract. As stated in DFARS 225.403-70, the
Trade Ageements Act, and NAFTA do not apply to clothing and related items. The
Buy American Act applies. The contracting officer should have included
DFARS 252.225-7000 in the solicitation and DFARS 252.225-7001 in the contract.
Twenty offers were received in response to the solicitation, all from contractors
offering gloves from nonqualifying countries under the Buy American Act. Obbco
Safety and Supply provided a Buy American Act-Trade Agreements Act-Balance of
Payment Program certificate that indicated the gloves were manufactured in
Mexico. Mexico is an eligible country under NAFTA, but is a nonqualifying
country under the Buy American Act. A FISC Bremerton contracting official stated
that, at the time of contract award, she did not know that NAFTA was not
applicable to the procurement. Even though latex rubber is an excepted material
under FAR 25.108, “Nonavailable Articles,” that can be acquired as an end product
or component without regard to the restrictions of the Buy American Act, the latex
rubber gloves do not meet the test of a domestic end product. DFARS 225.105(5)
states that to qualify as a domestic end product the product must be manufactured in
the United States. The contracting officer did not obtain the determination required
by DFARS 225.102 that domestic gloves are not reasonably available before
awarding the contract for nonqualifying country end products.

FISC-Pearl Harbor

Contract: N00604-99-M-A430
Awarded: December 14,1998
Type of Contract: Purchase Order
Contract Value: $2,781
Items Purchased: Fishing Jacket and Bib Overalls
Procurement Method: Competitive
Contractor: Helly Hanson Seward, Seward, AK

Details: The contracting officer solicited three vendors and received two offers.
One offer was rejected because the offered items did not meet the waterproof
specification. The contract was awarded to the remaining contractor, Helly Hanson
Seward. The contracting officer correctly included DFARS 252.225-7001 in the
contract. The contract file did not contain a Buy American Act certificate required
by DFARS 252.225-7000, nor did it contain any evidence that the solicited
contractors were advised that only domestic or qualifying country end products are
acceptable unless the price of a nonqualifying country end product is the low offer
under the evaluation procedures in DFARS 225.105. Additionally, the contract file
contained no evidence that the contracting officer obtained country of origin
information for the offered items. We obtained documentation from Helly Hanson
Seward that shows that the items purchased were manufactured in China and
Indonesia. The contracting officer did not obtain the determination required by
DFARS 225.102 that the fishing jacket and bib overalls were not reasonably
available from domestic sources before awarding the contract for end products from
nonqualifying countries.




                                    33
FISC-San Diego

Contract: N00244-99-D-0015/0002
Awarded: March 30, 1999
Type of Contract: Indefinite-Delivery, Indefinite-Quantity
Contract Value: $35,651
Item Purchased: Wetsuits
Procurement Method: Noncompetitive
Contractor: Ocean Enterprises, San Diego, CA

Details: The contract was a delivery order against an indefinite-delivery,
indefinite-quantity contract. Neither the basic contract nor the delivery order
contained the required DFARS Buy American Act clause. The combined
Commerce Business Daily synopsis and request for quotations for the basic contract
stated that DFARS 252.225-7001 was applicable. DFARS 252.225-7001 requires
that the contractor provide domestic end products unless it proposes (and is awarded
a contract) to provide nonqualifying country end products. The combined synopsis
and request for quotations, however, did not make DFARS 252.225-7000
applicable. DFARS 252.225-7000 requires that the contractor submit a Buy
American Act-Balance of Payments Program certificate. The file for the basic
contract contained an incomplete Buy American Act-Trade Agreements-Balance of
Payments Program Certificate. The certificate was inappropriate for the
procurement because, as stated in DFARS 225.403-70, the Trade Agreements Act
does not apply to clothing and related items. The contracting officer should have
included DFARS 252.225-7000 in the combined synopsis and request for quotations
and incorporated DFARS 252.225-7001 in the basic contract. The wetsuits
provided by the contractor did not qualify as domestic end products.
DFARS 225.105(5) states that to qualify as a domestic end product, the product
must be manufactured in the United States and the costs of its United States and
qualifying country components must exceed 50 percent of the cost of all of its
components. The contractor manufactured the wetsuits in California, but imported
the primary material (neoprene) in the wetsuits from Japan, a nonqualifying
country. The FISC-San Diego purchased the wetsuits for graduates of the Navy’s
Surface Rescue Swimmer Course. The Director of Simplified Acquisition stated
that the contracting officer for the contract was no longer employed by FISC-San
Diego. She further stated that the wetsuits are still being purchased for the
graduates. The Director was not aware that the neoprene was imported from Japan
and that the gloves were imported from China. The contracting officer apparently
awarded the delivery order without considering the Buy American Act and did not
obtain the determination required by DFARS 225.102 that domestic wetsuits are not
reasonably available before awarding the contract for nonqualifying country end
products.




                                     34
Air Force Organizations
     Air Force Academy

     Contracts: F05611-99-D-M502/5001 and 5002;
                F05611-98-D-M001/5000 and 5001
     Awarded: February 11, and July 27, 1999;
                February 20, and March 9, 1998
     Type of Contract: Indefinite Delivery/Indefinite Quantity
     Contract Values: $94,550 and $12,799;
                       $59,923 and $11,315
     Items Purchased: Athletic Shoes
     Procurement Method: Competitive
     Contractors: Blick’s Sporting Goods, Colorado Springs, CO and
                   IN2 Sports, Incorporated, Denver, CO

     Details: The contracting officer specified athletic shoes by brand name (Asics) in
     the solicitations for contracts F05611-99-D-M502 and F05611-98-D-M001. The
     customer (Cadet Issue Store) specifically requested the Asics athletic shoes because
     the shoes were recommended by the Cadet Uniform Board and approved by the
     Superintendent of the Academy and the Cadet Financial Advisory Group. The
     Cadet Uniform Board chooses items that will be used and worn by all cadets. The
     Superintendent of the Academy is the final approval authority on all Cadet Uniform
     Board recommendations. The Podiatry Consultant to the Air Force Surgeon
     General recommended the Asics shoes to the Cadet Uniform Board. In 1991, the
     Podiatry Consultant conducted an Academy study that involved testing 14 different
     brands and types of athletic shoes by medical and military personnel running more
     than 3 miles per day, 3 or more days per week. None of the tests included shoes
     manufactured in the United States. The study was prompted by the number of foot
     injuries sustained by cadets during training. Based on the study results, the
     Podiatry Consultant recommended the Asics shoes to the Cadet Uniform Board.
     Air Force officials at the Academy felt they were exempt from the Berry
     Amendment and Buy American Act because the working capital fund, commonly
     referred to as the Cadet Stock Fund, used to finance the contracts is not an
     appropriated fund. The Cadet Stock Fund is a revolving stock fund that is
     reimbursed through the Cadet Trust Account after a cadet has purchased items from
     the Cadet Issue Store. Air Force cadets receive $5,000 advance pay upon entering
     the Academy and also bring $2,500 of their own funds. The $7,500 is maintained
     in the individual cadet’s pay account. The cadets give “power of attorney” to the
     Superintendent of the Academy to handle all of their pay and initial deposit. The
     Cadet Financial Advisory Group approves and controls cadet expenditures
     considering cash allowances, cadet indebtedness, deductions and charges, adequacy
     of held pay, and entrance deposit. When a cadet charges an item at the Cadet Issue
     Store, funds are transferred from the cadet’s pay account to the Cadet Trust Fund.
     At that point, the Cadet Trust Fund reimburses the Cadet Stock Fund. The Air
     Force officials contend that although military [cadet] pay is appropriated, when the
     funds are paid to cadets [deposited in the cadet’s individual pay account] the funds
     become personal funds of the cadet and are not available to DoD to purchase items
     other than uniforms and academic supplies for the cadet. Air Force officials also
     contend that the Buy American Act and the Berry Amendment do not apply because


                                          35
the Cadet Issue Store is a “commissary similar” facility established to resell items
to the cadets. However, Air Force officials could not identify any statute,
regulation, ruling, or other documentation that states that purchases financed with
the Cadet Stock Fund are not subject to provisions of the Buy American Act or the
Berry Amendment.

On January 13, 1999, the Chief of Contracting, Logistics Division, signed a waiver
of Buy American Act and Berry Amendment restrictions for Asics athletic shoes
citing authority at DFARS 225.7005(a)(2), “Waiver of Certain Restrictions,” that
permits the Head of the Contracting Activity to waive the restrictions for certain
purchases under 10 U.S.C. 2534(a). The waiver was invalid because 10 U.S.C.
2534(a) does not include military clothing and related items. Additionally, the
Chief of Contracting did not have authority to waive the Berry Amendment. The
Berry Amendment was applicable to both contracts and the orders issued under the
contracts because the anticipated value of the contracts exceeded the $100,000
Berry Amendment threshold. Contract F05611-99-D-M502 was awarded with a
ceiling value of $404,273 through option year ending 30 September 2002. Order
5001 had an award value of $94,550. Order 5002 for $12,799 was a follow-on to
Order 5001. Contract F05611-98-D-M001 was awarded with a ceiling value of
$139,382. Order 5000 was awarded for $59,923. Order 5001 for $11,315 was a
follow-on order. The Asics shoes were manufactured in China.

Dover Air Force Base

Contract: F07603-99-P-0101 with modification P0001, and F07603-98-P-0431
Awarded: April 2, 1999, and September 3, 1998
Type of Contract: Purchase Orders
Contract Value: $32,400 and $2,694
Items Purchased: Gloves
Procurement Method: Competitive
Contractor: DNA Distribution, Incorporated, Drums, PA, and Gem Safety
            Products, Allentown, PA

Details: The contracting officer incorrectly included FAR 52.225-3 and 52.225-9,
“Trade Agreements,” in purchase order F07603-99-P-0101. The contracting
officer for F07603-98-P-0431 did not include any Buy American Act clauses in the
purchase order. The contracting officers should have included
DFARS 252.225-7000 in the solicitations and DFARS 252.225-7001 in the
purchase orders as required by DFARS 225.109. The contractors obtained the
gloves from Southwest Motorsports Enterprises, Incorporated, the United States
source of the heat resistant gloves, who stated that it developed the gloves
specifically for the military and that the gloves are in use at Air Force bases
world-wide. The purchase order solicitations specified Southwest Motorsports part
numbers. Documents provided by Southwest Motorsports state that the gloves are
manufactured in South Korea. The contracting officers for the two purchase orders
were aware that the gloves were manufactured in South Korea, a nonqualifying
country, but believed that no further action was required to comply with the Buy
American Act because South Korea is a designated country under the Trade
Agreements Act. The contracting officers did not determine whether the gloves (a
clothing item) was an eligible product under the Trade Agreements Act. As stated
in DFARS 225.403-70, clothing items are not eligible products under the Trade



                                     36
Agreements Act. The contracting officers did not obtain the determination required
by DFARS 225.102 that the gloves were not reasonably available from domestic
sources before awarding the purchase orders for end products from a nonqualifying
country.

Edwards Air Force Base

Contracts: F04700-99-P-0091, F04700-99-P-0143, and F04700-99-P-0147
Awarded: March 23, 1999, July 19, 1999, and July 22, 1999
Type of Contracts: Purchase orders
Contract Values: $13,662, $2,613, and $5,489
Items Purchased: Heat Resistant Gloves
Procurement Method: Noncompetitive
Contractor: Southwest Motor Sports, Phoenix, AZ

Details: The three purchase orders were for the type of heat resistant gloves that
Edwards Air Force Base routinely purchased from Southwest Motor Sports.
Documentation in the purchase order files stated that an earlier contract was
competitively awarded to Southwest Motor Sports, and that the gloves offered by
Southwest Motor Sports were the only gloves that met the Air Force requirements.
An Edwards Air Force Base contracting officer stated that subsequent orders for the
gloves were noncompetitively awarded and arranged by calling Southwest Motor
Sports and ordering a quantity of gloves. There was no evidence in the purchase
order files that the contracting officers advised Southwest Motor Sports that only
domestic or qualifying country end products were acceptable unless the price of a
nonqualifying country end product is the low offer under the evaluation procedures
in DFARS 225.105. The written purchase orders for the gloves correctly contained
DFARS 252.225-7001, which requires that the contractor provide domestic end
products unless it proposes (and is awarded a contract) to provide nonqualifying
country end products. The gloves provided by the contractor did not qualify as
domestic end products because they were manufactured in South Korea, a
nonqualifying country, of South Korean materials (a fact confirmed by the
contractor). The contracting officers and the customer (Supply) were not aware
that the gloves were made in South Korea and neither tried to determine the place
of origin before awarding the purchase orders. One contracting officer stated that
because of the small dollar value and frequent nature of the purchase orders, the
requirements of the Buy American Act were not followed for every stand-alone
order.




                                    37
Grand Forks Air Force Base

Contracts: F32605-99-P-0034 and F32605-98-P-0222
Awarded: March 16, 1999, and August 13, 1998
Type of Contracts: Purchase Orders
Contract Values: $35,504 and $7,655
Items Purchased: Gloves
Procurement Method: Competitive
Contractor: Midwest Parts & Contracting (now known as Dakota Outerwear Co.),
            Minot, ND

Details: Purchase order 0034 was for Gortex/thinsulate gloves and green
mechanic/combat vehicle gloves. Purchase order 0222 was for green
mechanic/combat vehicle gloves only. The contracting officers did not include
DFARS 252.225-7001 in the purchase orders as required by DFARS 225.109. In
the case of the oral solicitation for purchase order F32605-94-P-0222, the
contracting officer should have informed the potential contractors that only
domestic or qualifying country end products were acceptable unless the price of a
nonqualifying country end product is the low offer under the evaluation procedures
in DFARS 225.105. The file for purchase order F32605-99-P-0034 contained a
copy of the Buy American Act-Balance of Payments Program certificate required by
DFARS 252.225-7000. However, lines were drawn through the spaces for showing
line items numbers and country of origin with no explanatory information provided.
The contractor provided documentation that the gloves for both purchase orders
were manufactured in Pakistan or China, both nonqualifying countries. The
contracting officers did not determine where the gloves were manufactured nor did
they obtain the determination required by DFARS 225.102 that the gloves were not
reasonably available from domestic sources before awarding the purchase orders for
end products from a nonqualifying country.

Contract: F32605-98-P-0129
Awarded: February 13, 1998
Type of Contracts: Purchase Order
Contract Value: $51,000
Items Purchased: Gloves
Procurement Method: Competitive
Contractor: G.S.A. Incorporated, Rapid City, SD

Details: The contracting officer did not include DFARS 252.225-7001 in the
purchase order as required by DFARS 225.109. However, the purchase order file
contained a completed Buy American Act-Balance of Payment Program certificate
required by DFARS 252.225-7000. From the February 10, 1998, date and the
facsimile machine phone on the certificate, it appears that G.S.A. Incorporated
completed the certificate 3 days before purchase order award. The certificate states
that all contract line items are qualifying country end products. G.S.A.
Incorporated purchased the gloves from Cabela’s, Kearney, NB, a sporting goods
outfitter. According to a Cabela's representative, the gortex/thinsulate gloves
provided to G.S.A. Incorporated were manufactured in China, a nonqualifying
country. The contracting officer stated that he accepted the vendor's certification
that the acquisition complied with the Buy American Act. However, on
February 11, 1998, Grand Forks Air Force Base supply personnel evaluated gloves



                                     38
offered by 10 contractors, including G.S.A. Incorporated, and prepared a
memorandum for the record stating that none of the gloves offered were made in
the United States. The contracting officer, who is no longer at the Base, should
have been aware of the memorandum because it was provided to her 2 days before
the purchase order award and included in the purchase order file. The contracting
officer did not obtain from the chief of the contracting office a determination that
domestic gloves were not reasonably available as required by DFARS 225.102.

Maxwell Air Force Base, AL

Contract: F01600-99-P-0428
Awarded: September 29, 1999
Type of Contracts: Purchase Order
Contract Values: $15,288
Items Purchases: Jackets embroidered with Air Force emblem and wording
Procurement Method: Competitive
Contractor: Gear For Sports Incorporated, Lenexa, KS

Details: The contracting office received the purchase request on
September 20, 1999; 10 days before fiscal year end September 30, 1999,
necessitating a short turnaround for contract award. The contracting officer did not
post the requirement on the Electronic Posting System because of the time
constraints. The contracting officer sought to satisfy the requiring organization’s
request for a specific jacket from Gear For Sports Incorporated, and conducted oral
solicitations with two contractors. Gear for Sports was the low bidder. The
purchase order file contained no evidence that the contracting officer advised
potential contractors that only domestic or qualifying country end products were
acceptable unless the price of a nonqualifying country end product is the low offer
under the evaluation procedures in DFARS 225.105. The contracting officer
correctly incorporated DFARS Clause 252.225-7001 in the purchase order, but it
was not applied. The contractor provided jackets made in Taiwan, a nonqualifying
country, of Taiwanese components (a fact confirmed by the contractor). The
contracting officer did not determine the country of origin of the jackets and did not
obtain the determination, required by DFARS 225.102, that the jackets were not
reasonably available from domestic sources before awarding the purchase order for
end products from a nonqualifying country.

Contract: F01600-99-P-0366
Awarded: August 31, 1999
Type of Contracts: Purchase Order
Contract Values: $4,288 (Includes $3,988 for shoes manufactured in a
nonqualifying country)
Items Purchases: Safety Shoes
Procurement Method: Noncompetitive
Contractor: Atlas Safety Equipment Company, Birmingham, AL

Details: The requiring organization (908th Air Force Reserve) specified custom-fit
safety shoes and suggested Atlas Safety Equipment Company as a source. Atlas
Safety Equipment, a distributor for several shoe companies, provided safety shoes
in various types and sizes through a mobile service to authorized personnel of the
908th Air Force Reserve. The contracting officer limited the cost to $75 a pair and



                                      39
determined that the purchase order price was fair and reasonable based on historical
cost data from a contract that was competitively awarded in 1998 for a similar
requirement. The purchase order file contained no evidence that the contracting
officer advised Atlas Safety Equipment Company that only domestic or qualifying
country end products were acceptable unless the price of a nonqualifying country
end product is the low offer under the evaluation procedures in DFARS 225.105.
The contracting officer correctly incorporated DFARS Clause 252.225-7001 in the
purchase order, but it was not applied. The contracting officer did not determine
the country of origin and was not aware that the shoes were made in China. Atlas
Safety Equipment Company and the various shoe companies provided us with
documentation showing that the shoes were manufactured in China.

Contract: F01600-99-P-0372
Awarded: September 7, 1999
Type of Contracts: Purchase Order
Contract Values: $14,313
Items Purchases: Sport Shirts, Fleece Shirts, T-Shirts, Fleece Pants, Nylon
Jackets, Nylon Pants, and Running Shorts
Procurement Method: Competitive
Contractor: F&G Graphics, Jacksonville, FL

Details: The requiring organization (Officer Training School) specified sports
shirts, shirts, pants, jackets, and running shorts printed with its logo. The
contractor obtained the items from other vendors in the United States, who
documented that the nylon pants were made in Bangladesh; the nylon jackets were
made in Taiwan; and the pique sports shirts were made in Honduras of United
States components. The contracting officer included DFARS 252.225-7001 in the
purchase order, but did not enforce it. Contracting personnel were not familiar
with the requirements of the Buy American Act.

Peterson Air Force Base

Contract: F05604-98-P-2471
Awarded: July 22, 1998
Type of Contract: Purchase Order
Contract Value: $4,588 (included $3,148 for items manufactured in nonqualifying
countries)
Items Purchased: Sweatshirts, Sweatpants, T-Shirts, and Shorts with
Silk-Screened Logos
Procurement Method: Noncompetitive
Contractor: Tayco Corporation, Colorado Springs, CO

Details: On July 22, 1998, the requiring organization (13th Air Support Operations
Squadron) requested that the contracting officer award a sole-source contract
because Tayco Corporation was the only source that could provide the items needed
for an athletic event at Fort Carson in 2 weeks. The contract specialist stated that
he conducted oral solicitations via phone with three contractors. However, the
abstract of bids and other documents in the purchase order file indicate only one
source was contacted and that the purchase order was noncompetitive. The contract
specialist also stated that he verbally asked Tayco Corporation if it would abide by
the contract clauses, but did not mention any specific clause such as the DFARS



                                     40
Buy American Act clause. DFARS 225.109 requires that in oral solicitations
prospective vendors be informed that only domestic and qualifying country end
products are acceptable unless the price of a nonqualifying country end product is
the low offer under the evaluation procedures in DFARS 225.105. The contracting
officer, who is no longer employed at the Base, did not include
DFARS 252.225-7001 in the purchase order, and the contractor provided items
made in Mexico and Honduras, both nonqualifying countries. The contracting
officer did not determine the country of origin of the jackets and did not obtain the
determination required by DFARS 225.102 that the items were not reasonably
available from domestic sources before awarding the purchase order for end
products from nonqualifying countries. Contracting officials at Peterson Air Force
Base were not aware that the T-shirts, sweatpants, and sweatshirts, valued at $3,148
were made in Mexico and Honduras.

Contract: F05604-98-P-1860
Awarded: April 8, 1998
Type of Contract: Purchase Order
Contract Value: $3,024 (included $2,568 for items manufactured in nonqualifying
countries)
Items Purchased: Baseball Jerseys, Caps, and Socks
Procurement Method: Competitive
Contractor: All American Sports Center, Colorado Springs, CO

Details: The requiring organization (Youth Baseball Program) specified baseball
jerseys, socks, and caps with youth baseball patches sewn on. According to
purchase order file documents, the contracting officer, who is no longer employed
at the Base, provided written solicitations to four vendors and received two offers.
However, the contracting officer did not include DFARS 252.225-7000 and
DFARS 252.225-7001 in the solicitation and purchase order, and the contractor
provided jerseys manufactured in Mexico, and caps manufactured in Bangladesh
and Sri Lanka, nonqualifying countries. The contracting officer did not determine
the country of origin of the items and did not obtain the determination required by
DFARS 225.102 that the items were not reasonably available from domestic
sources before awarding the purchase order for end products from nonqualifying
countries.




                                     41
Appendix E. Actions Taken After the Audit of
            FY 1996 and FY 1997 Procurements
            of Military Clothing and Related
            Items at Specific Installations

Army
       Army Garrison, Aberdeen Proving Ground, MD. The contracting officer
       removed shoe styles manufactured in Malaysia from its contract with Lehigh Safety
       Shoe Company. Additionally, the contracting officer directed the contracting
       officer representative not to order any more shoes manufactured in China.

       Army Garrison, Fort George G. Meade, MD. Contracting officials stated that
       they have not awarded any contracts for safety shoes since September 1997. The
       officials further stated that the requiring activities serviced by the Army Garrison
       contracting office now use the Government purchase card to buy safety shoes or
       pay a shoe allowance to eligible employees to purchase their own shoes.

       Letterkenny Army Depot, PA. In June 2001, contracting officials suspended the
       procurement of foreign shoe styles included in its contract with Iron Age Protective
       Company and have not added any new foreign shoes to the contract. The prior
       audit, as well as the current audit, identified Letterkenny Army Depot procurements
       of shoes manufactured in nonqualifying countries

       Military Academy, NY. In June 2001, the Academy began a formal training
       program on the Buy American Act and the Berry Amendment. Additionally,
       during the audit, they appeared more diligent in obtaining appropriate waivers, and
       including the appropriate DFARS provisions and clauses in solicitations and
       contracts. The prior audit, as well as the current audit, identified Military
       Academy procurements of clothing items manufactured in nonqualifying countries.

Navy
       Fleet and Industrial Supply Center (FISC), Bremerton, WA. In December
       1998, FISC Bremerton developed a plan to ensure compliance with the Buy
       American Act and the Berry Amendment. Training materials were issued and
       training classes were developed. A checklist and a matrix were developed for
       contracting officers to use as guidelines for including and applying DFARS
       provisions and clauses to procurements. The prior audit, as well as the current
       audit, identified FISC Bremerton procurements of gloves manufactured in
       nonqualifying countries.




                                             42
Air Force
     Air Force Academy, Colorado Springs, CO. In November 2000, Academy
     contracting personnel requested training material from the Director, Defense
     Procurement (Foreign Contracting) and used the material provided to conduct
     internal training on the Buy American Act and the Berry Amendment. The prior
     audit, as well as the current audit, identified Air Force Academy procurements of
     athletic shoes manufactured in nonqualifying countries.

     Air National Guard, Birmingham, AL. Contracting personnel reviewed the
     findings of the previous audit and reviewed the appropriate clauses to ensure
     compliance.

     Elmendorf Air Force Base, AK. Contracting personnel reviewed findings of the
     previous audit, conducted training, and added specific instructions on the Buy
     American Act and the Berry Amendment to the buyer's checklist.

     Homestead Air Reserve Base, FL. Contracting personnel received centralized
     Berry Amendment and Buy American Act training from Air Force Reserve
     Headquarters contracting personnel.

     Keesler Air Force Base, MS. Contracting personnel revised the Commodities
     Quote Sheet to ensure that the buyer advises the vendor on Buy American Act
     requirements and obtains representations and certifications for purchase orders over
     $2,500.

     Mississippi Air National Guard, Meridian, MS. Contracting personnel
     conducted internal training during the first half of 1999. Two checklists were
     generated, one as a general checklist for purchase orders over $2,500, and another
     as a “Buy American Checklist” with appropriate DFARS references. The Buy
     American Act-Balance of Payments Program Certificate is required from all
     vendors during the solicitation process, and the certificate is reviewed prior to
     issuing a purchase order.

     Pittsburgh Air Reserve Station, Pittsburgh, PA. Contracting personnel received
     centralized Berry Amendment and Buy American Act training from Air Force
     Reserve Headquarters contracting personnel.




                                          43
Appendix F. USSOCOM Comments on the
             Finding and Audit Response
   USSOCOM Comments on the Finding. The Acquisition Executive, U.S. Special
   Operations Command (USSOCOM) nonconcurred with the finding, stating that
   USSOCOM’s review of its 34 contract actions indicates that problems with properly
   applying Buy American Act regulations are not as widespread as outlined. The
   Acquisition Executive believed the auditors may have been unfamiliar with the
   location of contract clauses in IDIQ contracts and General Services Administration
   (GSA) schedules, and that the auditors did not check the original contract files,
   which specify the terms of subsequent orders. The Acquisition Executive stated
   that the draft report indicated that DFARS provision 252.225-7000 was not present
   in the orders awarded under IDIQ contracts USZA22-98-D0008 and
   USZA22-99-D0004. The Acquisition Executive also stated GSA includes
   FAR 52.225-5, “Trade Agreements,” in its schedule contracts, and the FAR clause
   requires domestic materials or material from designated countries be provided.
   Application of FAR 52.225-5 covers all DoD foreign acquisition concerns except
   for the Berry Amendment and there is no requirement to add DFARS 252.225-7002
   or 252.225-7000. Further, the ordering contracting officers cannot change the
   terms of the schedules. In regards to 14 purchase orders issued by the Navy
   Special Warfare Development Group missing DFARS 252.225-7000
   and 252.225-7003, the Acquisition Executive agreed that 7 purchase orders that
   were more than $25,000 should have had DFARS 252.225-7000. For actions less
   than $25,000, FAR 13.106-1(c) allows oral solicitations, but written certifications
   such as those required by DFARS 252.225-7000 are not required; all required
   information is requested by telephone. Concerning the BPA order, the Acquisition
   Executive stated that the BPA needed to be checked to determine clauses/provisions
   present, not the order, and that USSOCOM was not able to access the BPA. The
   Acquisition Executive stated that his point of contact discussed USSOCOM’s
   concerns with the lead auditor, and the auditor agreed with the nonconcurrence.
   The Acquisition Executive recommended that DoD consider rewriting DFARS part
   225 and suggested possible inclusion of a matrix or a decision tree to help
   determine clauses needed when using simplified acquisition methods.

   Audit Response. We do not agree with the conclusion that problems with applying
   Buy American Act regulations are not widespread. The USSOCOM comments are
   based on incomplete information inadvertently supplied by the audit team in
   response to questions regarding the draft report. The information provided was a
   spreadsheet that identified, among other things, whether certain DFARS provisions
   and clauses were in each contract action in the audit sample. The analysis to
   determine whether the provisions and clauses were applicable to each contract
   action was not provided to USSOCOM by the audit team. Accordingly, we do not
   agree with the conclusion that the auditors may have been unfamiliar with the
   location of contract clauses in IDIQ contracts and GSA schedules.

   We also disagree that the draft report states that DFARS 252.225-7000 was not
   present in the orders awarded under the IDIQ contracts. During the audit, we
   obtained copies of the IDIQ contracts from USSOCOM and determined that the
   Berry Amendment applied to the two contracts and the five orders issued against the


                                       44
contracts. The contracts appropriately contained the Berry Amendment clause,
DFARS 252.225-7012. We also noted that the contracts unnecessarily contained
DFARS 252.225-7001 (Buy American Act), which indicates that the contracting
officer did not have a clear understanding of when to include the Buy American Act
or the Berry Amendment clause. DFARS 225.109(d) states that DFARS 252.225-
7001 need not be used in solicitations and contracts when “end products are
restricted to domestic or domestic and qualifying country sources . . . (see
225.70).” The Berry Amendment restricts end products to domestic sources (see
225.7002). We did not mention in the report the unnecessary use of
DAFARS 225.252-7001 because the correct Berry Amendment clause was also
included in the contracts. The USSOCOM IDIQ orders are included in the
statement on page 9 of the report that “the contracting officers for 103 contract
actions were sufficiently familiar with the guidance to include
DFARS 252.335-7012 in the contracts.”

We agree that GSA includes FAR 52.225-5 in its schedule contracts. We do not
agree, however, that the application of FAR 52.225-5 covers all DoD foreign
acquisition concerns except the Berry Amendment. During this audit and the
previous audit, GSA advised the auditors that FAR 52.225-5 is included in the
schedule contracts because the contract values exceed the threshold (currently
$177,000) where the Trade Agreements Act applies. However, the Trade
Agreements Act does not apply to procurements of military clothing and related
items. The DFARS 225.403-70, “Products Subject to Trade Agreement Acts,”
lists the foreign end products that are subject to the Trade Agreements Act and the
North American Free Trade Agreement (NAFTA) by Federal supply group. The
items purchased on the GSA schedules in question are in Federal Supply Group 84
and are not listed as products subject to the Trade Agreements Act and NAFTA.
The guidance at FAR 25.400(b), “Scope of Subpart,” requires that agency
regulations be followed for application of trade agreements that are unique to
individual agencies, and DFARS 208.404(a), “Using Schedules,” states that the
ordering office must apply the procedures of DFARS part 225 and FAR part 25,
“Foreign Acquisition,” when using a Federal supply schedule that lists both foreign
and domestic items that will meet the needs of the requiring activity. For
procurements that are subject to the Trade Agreements Act, DFARS 225.1101(6),
“Acquisition of Supplies,” requires that the clause at DFARS 252.225-7007 be used
instead of the clause at FAR 52.225-5. Additionally, we are not aware of any
guidance prohibiting DoD contracting officers, when ordering items that are subject
to the Buy American Act but not the Trade Agreements Act, from advising
schedule contractors that DoD is required to procure items that comply with the
Buy American Act, and that DFARS 252.225-7000 and -7001 pertain. If the
schedule contractor is unable to provide items that comply with the Buy American
Act, the contracting officer should obtain the items from another schedule
contractor or another contractor who is willing to provide items that do comply.

We do not agree that the draft report stated that 14 USSOCOM purchase orders
were missing DFARS provisions 252.225-7000 and –7003. We included in the
report only those contracts and purchase orders that did not have DFARS clause
252.225-7001, which requires contractor compliance with the Buy American Act.
The USSOCOM purchase orders included DFARS 252.225.7001. We agree with
the Acquisition Executive comment that for oral solicitations the required
information is requested by telephone, and written certifications are not required.



                                     45
However, we found no evidence in the contract files that the contractors were
informed, as required by DFARS 225.109(b), that only domestic and qualifying
country end products are acceptable unless one of the stated exceptions applies, and
USSOCOM contracting officials did not provide any evidence. Concerning the
BPA order, such as a checklist, that the contractors may have been informed we
were unable to conclusively determine whether DFARS 252.225-7001 was included
in the BPA. Therefore, we changed the report to increase the number of contract
actions for which we could not determine whether the clause was included from 26
to 27, and decreased the number of contract actions that did not include the clause
from 357 to 356.

In regards to the recommendation that DFARS part 225 be rewritten, the Defense
Acquisition Regulation Council is in the process of rewriting DFARS part 225,
“Foreign Acquisition,” and estimates that the rewrite will be published for
comment as a proposed rule by mid-April 2002.




                                     46
Appendix G. Navy Guidance Re-emphasizing
            Importance of Buy American Act
            and Berry Amendment




                     47
48
49
50
Appendix H. Report Distribution


Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Logistics)
  Director, Defense Procurement
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
General Counsel

Department of the Army
Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Research, Development, and Acquisition)
Assistant Secretary of the Navy (Financial Management and Comptroller)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Acquisition)
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Unified Command
Commander in Chief, United States Special Operations Command

Other Defense Organization
Director, Defense Logistics Agency




                                           51
Non-Defense Federal Organizations
Office of Management and Budget
Office of Federal Procurement Policy
General Services Administration

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
   Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
   Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on Government
   Reform




                                           52
Department of the Army Comments




                 53
54
55
56
57
58
59
Final Report
Reference




    Revised
    Page 16




               60
61
    Department of the Navy Comments




*




    * Navy’s Enclosure (1) on the following two pages.



                                                62
                     Final Report
                      Reference




                     Revised
                     Page 15




Enclosure (1)



                63
Final Report
Reference




Appendix G




Revised and
Redirected
 Page 16




               Enclosure (1), cont’d


                                       64
Department of the Air Force Comments




                  65
66
United States Special Operations Command
Comments




                   67
68
69
Audit Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Garold E. Stephenson
Richard B. Jolliffe
Eugene E. Kissner
Peter I. Lee
Bucceroni Mason
Arsenio M. Sebastian
Lt Col Samuel Griffin
George B. West
Randall M. Critchlow
Shaneen J. Beamish
Nicholas K. Bretz
Michael J. Miller
Miwon Kim
Elias S. Hornyak
